<html>
<title> - S. 2788, H.R. 2606, AND H.R. 4032</title>
<body><pre>[Senate Hearing 115-435]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-435

                   S. 2788, H.R. 2606, AND H.R. 4032

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 14, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
34-340 PDF          	    WASHINGTON : 2019   




                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
JON KYL, Arizona
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2018................................     1
Statement of Senator Cortez Masto................................    36
Statement of Senator Heitkamp....................................     3
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................     4
Statement of Senator Udall.......................................     2

                               Witnesses

Enos, Jr., Hon. Barney, Councilman, Gila River Indian Community..    17
    Prepared statement...........................................    18
Floyd, Hon. James R., Principal Chief, Muscogee (Creek) Nation...    10
    Prepared statement...........................................    11
Lacounte, Darryl, Acting Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................     4
    Prepared statement...........................................     6
Yankton, Sr., Hon. Douglas, Vice-Chairman, Spirit Lake Tribe.....    14
    Prepared statement...........................................    15

                                Appendix

Anoatubby, Hon. Bill, Governor, Chickasaw Nation, prepared 
  statement......................................................    40
Batton, Hon. Gary, Chief, Choctaw Nation of Oklahoma, prepared 
  statement......................................................    39

 
                   S. 2788, H.R. 2606, AND H.R. 4032

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:37 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I call this oversight hearing 
to order.
    Today, the Committee will receive testimony on three bills: 
S. 2788, a bill to repeal the act, entitled An Act to Confer 
Jurisdiction on the State of North Dakota Over Offenses 
Committed by or Against Indians on the Devils Lake Indian 
Reservation; H.R. 2606, the Stigler Act Amendments of 2018; and 
H.R. 4032, Gila River Indian Community Federal Rights-of-Way, 
Easements and Boundary Clarification Act.
    On April 26th, 2018, Senator Heitkamp introduced S. 2788. 
If enacted, the bill would repeal a 1946 Federal statute that 
authorized the State of North Dakota to prosecute crimes 
committed on the Spirit Lake Indian Reservation. Since then, 
the Spirit Lake Nation has established its own tribal court, 
criminal code, and law enforcement and public safety system. 
The repeal of this 1946 law would recognize the tribe's right 
as a sovereign Nation to prosecute authorized crimes occurring 
on the reservation.
    On May 23rd, 2017, Representative Cole, along with 
Representatives Lucas, Mullen and Russell, introduced H.R. 
2606, the Stigler Act amendments of 2018. The Stigler Act of 
1946 deals with the allotted lands of the Choctaw, Chickasaw, 
Muscogee Creek, Cherokee and Seminole tribal members in 
Oklahoma.
    This bill, H.R. 2606, amends the Stigler Act of 1947 by 
removing the one-half degree blood quantum requirement needed 
to retain the restricted status of inherited, allotted tribal 
member lands.
    It strikes me that those two bills show the incredible 
diversity we have in Indian Country, right? People think of it 
as kind of monolithic out there, and it is so incredibly 
diverse in so many ways. People just don't realize. It is 
amazing.
    On October 4th, 2017, the House Natural Resources Committee 
on Indian, Insular and Alaska Native Affairs held a legislative 
hearing on the bill. On August 21st, 2018, the bill was 
favorably reported by the full House Natural Resources 
Committee. On September 12th, 2018, the bill passed the House 
by a voice vote.
    The third bill before the Committee is H.R. 4032, the Gila 
River Indian Community Federal Rights-of-Way Easements and 
Boundary Clarification Act. H.R. 4032 was introduced by 
Representative Tom O'Halleran on October 12th, 2017.
    The purpose of the legislation is to confirm undocumented 
Federal rights-of-way or easements on the Gila River Indian 
Reservation, clarify the northern boundary of the tribe's 
reservation, and to take certain land located in Maricopa 
County and Pinal County, Arizona into trust for the benefit of 
the tribe.
    On February 6th, 2018, the House Natural Resources 
Subcommittee on Indian, Insular and Alaska Native Affairs held 
a legislative hearing on the bill. On July 13th, 2018, the bill 
was reported favorably by the full House Natural Resources 
Committee. On July 17th, 2018, the bill passed the House under 
suspension of the rules by voice vote.Before I turn to Vice 
Chairman Udall for any opening statement, I would like to 
welcome Vice Chairman Doug Yankton, from the Spirit Lake Nation 
in my home State of North Dakota. Welcome. I want to thank you 
for traveling here today to be with us.
    With that, I will turn to Vice Chairman Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling 
today's legislative hearing.
    I would like to acknowledge a constituent of mine in 
attendance. Gregory Ballinger is a senior at the Institute of 
American Indian Art in Santa Fe. Greg is Dine, from Gallup, New 
Mexico. Welcome, Greg. Good to have you here today.
    The three bills before us would impact tribes in North 
Dakota, Arizona and Oklahoma. The bills correct historic wrongs 
related to lands and jurisdiction of these tribes and work 
toward fulfilling the United States' trust responsibility.
    Senator Heitkamp's bill, S. 2788, would repeal a 1946 law 
that conferred concurrent criminal jurisdiction on the State of 
North Dakota and the Spirit Lake Tribe over on-reservation 
misdemeanor crimes. The statute, which is still on the books, 
is similar to other laws passed in the 1940s that this 
Committee has worked to repeal.
    In the decades since concurrent tribal-State jurisdiction 
was conferred, the Spirit Lake Tribe has built up its tribal 
courts, established its own law enforcement capability and 
enacted its own comprehensive criminal code. I hope we can work 
with Spirit Lake and the State to address the issues raised by 
this antiquated law.
    The second bill up for discussion today is the Stigler Act 
Amendments of 2018. Congress passed the Stigler Act in 1947. 
The law put inheritance limitations, based on blood quantum, on 
restricted status lands held by members of the Five Civilized 
Tribes of Oklahoma. H.R. 2606 would remove this requirement and 
allow any enrolled heirs to inherit the land and maintain its 
restricted status.
    Lastly, H.R. 4032 would require the Department of the 
Interior to take approximately 3,400 acres of land into trust 
for the benefit of the Gila River Indian Community and clarify 
the tribe's northern boundary and rights-of-way.
    When the Gila River Indian Community was established in 
1859, the Federal Government failed to survey its northern 
boundaries in a timely manner. Encroachment from settlers 
resulted in the tribe losing portions of its lands illegally. 
Almost 150 years later, the Gila River Indian Community sought 
resolution in the court, and ultimately, the Department of the 
Interior agreed to a settlement.
    As part of the settlement agreement, the tribe waived its 
claims related to the boundary dispute in exchange for monetary 
damages and for the return of ancestral lands identified by the 
Bureau of Land Management for disposal. This legislation helps 
fulfill the terms of the settlement.
    With these bills, Congress has the opportunity to correct 
historic wrongs, make clarifying changes, and ensure that the 
United States is holding up its side of the government-to-
government relationship with the Gila River Indian Community, 
the Spirit Lake Nation and the Five Civilized Tribes of 
Oklahoma.
    Thank you again, Mr. Chairman, for calling this hearing. I 
look forward to today's testimony.
    The Chairman. Thank you, Vice Chairman.
    Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    Very briefly, first, I want to welcome the Vice Chairman, 
Doug Yankton, from the Spirit Lake Nation. He is here to 
testify on this bill.
    I want to remind this Committee that the primary 
responsibility of any sovereign is to provide for the safety of 
its people. Spirit Lake has been denied that opportunity for 
far too long. This bill would right that wrong.
    I think it is important to note that the State, which has 
jurisdiction, has rarely used this authority and it only adds 
to the complex jurisdictional challenges that arise when trying 
to prosecute crimes occurring on the reservation. Repeal of 
this outdated law would prevent concurrent misdemeanor 
jurisdiction and would help protect and really, include an 
expansion of that tribal sovereignty that is also important.
    No other reservation in North Dakota faces this 
bureaucratic challenge. The time has long passed since we have 
taken up this issue. I hope this Committee can move quickly on 
this bill.
    As we heard with Savanna's Act, although we are talking 
about heinous crimes of murder, we know that every day, 
misdemeanor crimes occur on the reservation. Without the 
ability to have enforcement action, women, children, other 
tribal members continue to live in a state of unsafe 
conditions.
    As a sovereign, I know both my Chairwoman, Myra Pearson, 
and Doug have worked very, very hard to provide for their 
people. But that has to include providing that security and 
that safety. That is a sovereign's responsibility. I know they 
take that responsibility very seriously.
    I want to personally again welcome the Honorable Doug 
Yankton, Sr., for the work that he does and for the effort he 
has put into bringing this to our attention so that we might 
consider correcting this wrong.
    Thank you, Mr. Chairman.
    The Chairman. Other opening statements before I turn to you 
for the purpose of an introduction? Okay, then I will turn to 
Senator Lankford.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Mr. Chairman, I want to introduce a 
friend who is here today, the Principal Chief of the Muscogee 
Creek Nation, Principal Chief Floyd. We are honored that you 
are here. Thank you for coming and making time to be able to 
come and talk about the Stigler Act, in particular. As the 
chief executive of one of the largest tribes in the Nation, you 
have a very busy schedule as well.
    Many people in this room may not know that you have served 
the Muscogee Creek Nation, but have also served the Nation of 
the United States for a long time as the former Director of the 
VA in eastern Oklahoma. You have been a valuable asset to the 
Nation for a long time. We are honored that you would spend 
time here to talk about the Stigler Act and be able to 
articulate some of the issues. Thank you for being here.
    The Chairman. Also, I want to welcome Darryl LaCounte, 
Acting Director, Bureau of Indian Affairs, U.S. Department of 
the Interior, Washington, D.C. Chief Floyd, thank you for being 
here, also Vice Chairman Yankton. They should have named a 
North Dakota town after you, though, not a South Dakota town. 
Again, thank you for being here.
    I would also welcome the Honorable Barney Enos, Jr., 
Councilman, Gila River Indian Community, Sacaton, Arizona. 
Thank you for being here as well.
    With that, we will start with Mr. LaCounte.

        STATEMENT OF DARRYL LACOUNTE, ACTING DIRECTOR, 
       BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. LaCounte. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall, and members of the Committee.
    I am Darryl LaCounte, the Acting Director for the Bureau of 
Indian Affairs in the Department of the Interior. My permanent 
role is Regional Director for the Bureau of Indian Affairs in 
the Rocky Mountain Region in Montana.
    Thank you for the opportunity to present the department's 
views on three bills today: S. 2788, to repeal the Act entitled 
An Act to Confer Jurisdiction on the State of North Dakota Over 
Offenses Committed By or Against Indians on the Devils Lake 
Indian Reservation; H.R. 2606 to amend the Act of August 4, 
1947, commonly known as the Stigler Act with respect to 
restrictions applicable to Indians of the Five Civilized Tribes 
of Oklahoma; and H.R. 4032, the Gila River Indian Community 
Federal Rights-of-Way Easements and Boundaries Clarification 
Act.
    Improving public safety in Indian Country is a bipartisan 
priority. In the past, Congress has enacted legislation that 
allowed States to have criminal jurisdiction within Indian 
Country. As a result of this legislation, States were allowed 
to exercise criminal jurisdiction over tribal members on the 
reservation, removing the exclusive rights of tribes not to 
have State law enforced on their tribal citizens on the 
reservation.
    S. 2788 reflects the modern Federal Indian policies of 
self-determination and self-governance. S. 2788 clarifies a 
muddled and complex jurisdictional scheme. The Spirit Lake 
Tribe in North Dakota currently operates its own tribal court. 
The Bureau of Indian Affairs, Office of Justice Services 
provides direct law enforcement and detention services.
    If the legislation were enacted, only the tribe or the 
Federal Government would have criminal jurisdiction over 
offenses by or against Indians on the Devils Lake Indian 
Reservation. As an advocate of tribal sovereignty and self-
determination, the department supports S. 2788.
    The lands of the Five Civilized Tribes could not be 
allotted under the General Allotment Act because of the tribe's 
fee ownership, yet tribes were eventually forced to allot their 
lands in severalty. The Stigler Act, as amended by the Act of 
August 11th, 1955, 69 Stat. 666, now governs the restricted 
status of the Five Tribes' allotted lands based on the Five 
Tribes blood quantum of the Indian landowner.
    Section 1 of the Stigler Act provides that all restrictions 
are removed at the death of the Indian landowner, provided that 
heirs and devisees of one-half blood or more of the Five 
Civilized Tribes may not convey lands that were restricted in 
the hands of the person from whom they were acquired without 
the approval of the county, now district, court in the county 
where the land is located.
    The effect of Section 1 is that, when a person owning 
restricted land passes away, only the heirs of at least one-
half blood of the Five Civilized Tribes inherit their interest 
in a protected, restricted, status. The department is aware of 
no other tribes in the Country where the trust or restricted 
status of their allotted lands are dependent upon the degree of 
blood of the owner.
    The Stigler Act is primarily responsible for massive loss 
of the Five Civilized Tribes' land base. Survey of tribal lands 
began in 1897 in preparation for the allotment of the Five 
Tribes lands. By 1916, approximately 15,794,000 acres had been 
allotted to members of the Five Tribes. By contrast, the Annual 
Acreage Report prepared by the Bureau of Indian Affairs 
indicates approximately 381,474 acres remained in restricted 
status to the members of the Five Tribes in 2012.
    Though no more current acreage report is available, the 
Eastern Oklahoma Region is confident that thousands more acres 
have passed out of restricted status into fee simple status 
since 2012. Thus, our best estimate now is that less than 2 
percent of the lands originally allotted to members of the Five 
Tribes remain in restricted status.
    Unlike previous bills where the objective was to amend the 
Stigler Act, this bill has a single objective: to eliminate the 
blood quantum requirement. This bill would not increase the 
amount of restricted land in Oklahoma, nor would it change the 
unique Five Tribes' system of approving conveyances, 
determining heirs, probating estates, partitioning lands, or 
quieting titles through the State district courts.
    It is the view of the department that this Act would be of 
great benefit to the Cherokee, Choctaw, Seminole, Chickasaw, 
and Muscogee Creek Nations, and of greater benefit to those few 
of their tribal citizens who are fortunate enough to still hold 
lands in restricted status. Their citizens would be allowed to 
inherit restricted or Indian lands without regard to their 
blood quantum, slowing the amount of land falling out of 
restricted status and allowing them to retain their land base. 
The department supports H.R. 2606.
    In December 2006, the Gila River Indian Community brought 
action in the United States District Court for the District of 
Columbia, seeking relief through ``a full and complete 
accounting of the Community's trust property and funds.'' The 
Community's priority claim in the litigation concerned the 
United States' alleged obligation to confirm the legal status 
of all rights-of-way on the reservation. The Community 
specifically claimed failure to properly document these rights-
of-way with grants of easements constituting a continuing 
breach of trust.
    The parties engaged in a long, yet extremely cooperative, 
alternative dispute resolution process that resulted in a 
settlement that resolved all historical mismanagement claims. 
The settlement agreement was executed in June 2016 and the 
breach of trust suit was dismissed in March 2017.
    I am running out of time so I am going to skip right to the 
end. The department supports the enactment of H.R. 4032. We 
also offer some additional background information and welcome 
the opportunity to work with the Committee, the sponsor and co-
sponsors of H.R. 4032 on recommendations to achieve the goals 
of the bill.
    Thank you for the opportunity to provide the department's 
views on these bills. This concludes my statement. I would be 
happy to answer any questions.
    [The prepared statement of Mr. LaCounte follows:]

   Prepared Statement of Darryl Lacounte, Acting Director, Bureau of 
            Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee, my name is Darryl LaCounte and I am the Acting Director 
for the Bureau of Indian Affairs at the Department of the Interior. I 
transitioned into this role from acting as the Deputy Director--Trust 
Services. My permanent role is Regional Director for the Rocky Mountain 
Region. As a Regional Director, I am responsible for all programs, 
services, and costs provided to and upholding the trust with Tribes in 
the region.
    Thank you for the opportunity to present an update on behalf of the 
Department regarding HR 2606.
Five Tribes Allotments and Stigler Act Background
    The Tribes referred to in the Act of August 4, 1947, 61 Stat. 731 
(the ``Stigler Act''), as the Five Civilized Tribes (the Cherokee, 
Choctaw, Chickasaw, Creek, and Seminole Tribes of Oklahoma) were 
removed from their homelands in the southeastern part of the United 
States pursuant to treaties wherein the United States agreed to convey 
lands to these tribes west of the Mississippi River. By 1835, the Five 
Civilized Tribes occupied nearly all of present-day Oklahoma.
    The lands of the Five Civilized Tribes could not be allotted under 
the General Allotment Act because of the Tribe's fee ownership. 
However, the tribes were eventually forced to agree to allot their 
lands in severalty. Allotment of the lands of the Five Tribes was by 
fee patent signed by the Chiefs or Governor of the Tribes in accordance 
with the individual allotment agreements.
    The allotments varied greatly in size from 40 to 220 acres. 
Separate deeds were issued for ``homestead'' and ``surplus'' 
allotments, and the restrictions varied by the type of allotment, the 
allottee's Tribe, and the allottee's degree of Indian blood or lack 
thereof.
    The Allotment Agreements between the United States and the 
individual tribes provided for varying periods of inalienability for 
the allotments. However, after allotment, Congress passed laws which 
restricted the alienation of some allotments and allowed others to be 
freely alienable. This series of mostly uncodified Acts governs 
restricted status of the land and funds of the Five Civilized Tribes. 
The Stigler Act, as amended by the Act of August 11, 1955, 69 Stat. 
666, now governs the restricted status of the Five Tribes' allotted 
lands based on the Five Tribes blood quantum of the Indian landowner.
    Section 1 of the Stigler Act provides that all restrictions are 
removed at the death of the Indian landowner, provided that heirs and 
devisees of one-half blood or more of the Five Civilized Tribes may not 
convey lands that were restricted in the hands of the person from whom 
they were acquired without the approval of the county (now district) 
court in the county where the land is located.
    The effect of this Section of the Act is that, when a person owning 
restricted land passes away, only his heirs of at least one-half blood 
of the Five Civilized Tribes inherit their interest in a protected 
``restricted'' status. The Department is aware of no other Tribes in 
the country where the trust or restricted status of their allotted 
lands are dependent upon the degree of blood of the owner.
H.R. 2606
    The Stigler Act is primarily responsible for the massive loss of 
the Five Civilized Tribes' land base. Survey of tribal lands began in 
1897 in preparation for the allotment of the Five Tribes lands. By 
1916, approximately 15,794,238 acres had been allotted to members of 
the Five Tribes. By contrast, the Annual Acreage Report prepared by the 
Bureau of Indian Affairs indicates approximately 381,474 acres remained 
restricted to the members of the Five Tribes in 2012. Though no more 
current Acreage Report is available, the Eastern Oklahoma Region is 
confident that thousands more acres have passed out of restricted 
status into fee simple status since 2012. Thus, our best estimate now 
is that less than 2 percent of the lands originally allotted to members 
of the Five Tribes remain in restricted status.
    Unlike previous Bills where the objective was to amend the Stigler 
Act, this Bill has a single objective: to eliminate the blood quantum 
requirement. This Bill would not increase the amount of restricted land 
in Oklahoma, nor would it change the unique Five Tribes' system of 
approving conveyances, determining heirs, probating estates, 
partitioning lands, or quieting titles through the state district 
courts. In the view of the Department, this Act would be of great 
benefit to the Cherokee, Choctaw, Seminole, Chickasaw, and Muscogee 
(Creek) Nations, and of greater benefit to those few of their tribal 
citizens who are fortunate enough to still hold lands in restricted 
status.
    H.R. 2606, the Stigler Act Amendments of 2017, would greatly 
benefit the Cherokee, Choctaw, Seminole, Chickasaw, and Muscogee 
(Creek) Nations. This will further benefit the Tribes by allowing their 
citizens to inherit restricted or ``Indian Lands'' without regard to 
their ``blood quantum''. Also by slowing the amount of land falling out 
of restricted status and allowing them to retain their land base. The 
Department supports H.R. 2606.
                                 ______
                                 
    Thank you for the opportunity to present this statement on behalf 
of the Department regarding S. 2788, a bill to repeal the Act entitled 
``An Act to confer jurisdiction on the State of North Dakota over 
offenses committed by or against Indians on the Devils Lake Indian 
Reservation''.
Criminal Jurisdiction in Indian Country
    Improving public safety in Indian Country is a bipartisan priority. 
In the past, Congress has enacted legislation that allowed states to 
have criminal jurisdiction within Indian Country. As a result of this 
legislation, states were allowed to exercise criminal jurisdiction over 
tribal members on the reservation, removing the exclusive rights of the 
tribe to not have state law enforced on their tribal citizens on the 
reservation.
    Secretary Zinke is an advocate for tribal sovereignty and self-
determination. S. 2788 reflects the modern federal Indian policies of 
self-determination and self-governance. S. 2788 clarifies a muddled and 
complex jurisdictional scheme. Accordingly, the Department supports S. 
2788.
S. 2788
    The Spirit Lake Tribe (``the Tribe''), located in North Dakota 
currently operates its own tribal court, and the BIA Office of Justice 
Services provides direct law enforcement and detention services. If the 
legislation were enacted, only the Tribe or the Federal Government 
would have criminal jurisdiction over offenses by or against Indians on 
the Devils Lake Indian Reservation.
    Enactment of S. 2788 would ensure that the Tribe is treated 
similarly to others across Indian country where either the BIA or the 
Tribe provides public safety services.
Conclusion
    Thank you for providing the Department the opportunity to testify 
on S. 2788. I am available to answer any questions the Committee 
members may have.
                                 ______
                                 
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee, thank you for the opportunity to testify on H.R. 4032 
``Gila River Indian Community Federal Rights-of-Way, Easements and 
Boundary Clarification Act (Act).'' The Department supports the 
enactment of H.R. 4032, and offers some additional background 
information and other recommendations that we encourage the Committee 
to consider at this time.
Background
    In December 2006, the Gila River Indian Community, hereinafter 
referred to as ``the Community,'' brought an action in the United 
States District Court for the District of Columbia, seeking declaratory 
and injunctive relief through ``a full and complete accounting of the 
Community's trust property and funds.'' The Community's priority claim 
in the litigation concerned the United States' alleged obligation to 
confirm the legal status of all rights-of-way on the Reservation. More 
specifically, the Community contended that the Department's failure to 
properly document these rights-of-way with grants of easement 
constituted a continuing breach of trust. Many of the alleged 
undocumented rights-of-way within the Gila River Indian Reservation are 
federal irrigation or power facilities, or Bureau of Indian Affairs 
roads, giving rise to allegations that the United States itself is now 
in trespass.
    From the onset of the litigation, the parties engaged in a long, 
yet extremely cooperative, alternative dispute resolution process that 
resulted in a settlement that resolved all historical mismanagement 
claims for $12.5 million. The settlement agreement was executed in June 
2016 and the breach of trust suit was dismissed in March 2017. In 
separate but related negotiations, the parties, the Community and the 
United States, continued to collaborate on addressing the other 
outstanding issues that the Community identified as being critical to 
its economic, cultural and sovereign best interests.
H.R. 4032
    Although the 2016 settlement agreement was not conditioned on any 
proposed legislation, it is the Department's understanding that the 
Community considers H.R. 4032 to be essential to the resolution of the 
rights-of-way issues for the protection of the Community property 
rights moving forward. The Department's review of the legislation 
identifies the objectives of the legislation as:

        (1)  Establish, ratify, confirm and document the legal status 
        of certain federal electrical, irrigation, and road rights-of-
        way or easements that now exist--undocumented or otherwise--
        within the exterior boundaries of the Reservation, as of the 
        date of the enactment;

        (2)  Establish a fixed location for the northern boundary of 
        the Reservation, via resurvey (The resurvey of the fixed 
        northern boundary has been completed and clearly marked in 
        conformance with the public system of surveys by the Dependent 
        Resurvey of Township 1 North, Range 1 East, Gila and Salt River 
        Meridian, Arizona, conducted by Gordon R. Bubel, as shown on 
        the plat and described in the field notes at Book 6060, 
        approved November 22, 2016, and officially filed on November 
        23, 2016, on file with the Bureau of Land Management''., 
        (Notice of Plat Filing was published in the Federal Register, 
        Volume 82, No. 11, Page 5599, January 18, 2017).);

        (3)  Direct the Secretary to transfer certain public lands to 
        the Community, in trust status; and

        (4)  Substitute the benefits provided to the Community, its 
        members and individual landowners, for any claims that the 
        Community, its members and landowners may have had against the 
        United States, in connection with any alleged failures relating 
        to location of the northern boundary and/or the documentation 
        and management of rights-of-way within the Reservation; and

        (5)  Authorize funds necessary for the United States to meet 
        the obligations under this Act.

    Section 4 of the bill directs the Secretary to take two parcels of 
land--known collectively as the Lower Sonoran Lands--into trust for the 
benefit of the Community. The parcels are located on the western and 
southern margins of the Gila River Indian Reservation in Maricopa and 
Pinal Counties, Arizona. These federal lands, totaling about 3,380.69 
acres, are currently managed by the Bureau of Land Management (BLM) for 
multiple uses. The Community has historical ties to these lands and the 
parcels include cultural resources and archaeological sites that are of 
considerable significance to the Community. The cultural and 
archaeological resources located within these parcels include plant, 
animal, and raw material gathering areas; areas of religious 
significance; trail systems; and transportation routes with cultural 
and religious significance. Under BLM management there is one grazing 
permittee and three rights-of-way on the parcels. The BLM supports, 
with some minor technical corrections, Section 4.
    The Lower Sonoran Lands were designated as suitable for disposal in 
the 2012 BLM Lower Sonoran Record of Decision and Resource Management 
Plan because they are isolated parcels, surrounded by non-BLM managed 
lands. No mineral values have been identified on the parcels. They are 
not suitable for management by another Federal department or agency, 
and are not needed for any other federal purpose. The BLM has initiated 
the process of a noncompetitive direct sale of the two parcels, 
including the subsurface, to the Community by placing a public notice 
in the Federal Register Volume 83, No. 103, Page 24489, May 29, 2018.
    H.R. 4032 would also modify that portion of the Reservation 
boundary that was described by Executive Order in 1879 as being along 
the middle of the Salt River, to fix the boundary in accordance with 
the 1920 Harrington survey. The historic boundary identified in the 
executive order in 1879 has shifted, along with the course of the Salt 
River, creating uncertainty as to the precise location of the boundary 
between the Reservation and adjoining patented lands. The Department, 
in coordination with the BLM and the Community, completed the resurvey 
of the fixed northern boundary in conformance with the public system of 
surveys by the Dependent Resurvey of Township 1 North, Range 1 East, 
Gila and Salt River Meridian, Arizona, conducted by Gordon R. Bubel, as 
shown on the plat and published in the Federal Register, Volume 82, No. 
11, Page 5599, January 18, 2017. The Record of Dependant Resurvey is on 
file with BLM. The Department recommends that the H.R. 4032 also 
expressly quiet the title of the affected parties and delete Section 3, 
``Disputed Area'' definition because the fixed northern boundary has 
been re-surveyed and there is no discussion of a ``Disputed Area'' 
within the Bill.
    H.R. 4032 would also establish, ratify and confirm those rights-of-
way depicted on the Federal and Tribal Facilities Map referenced in the 
bill, as of the date of enactment, with the exact location of the 
confirmed rights-of-way to be defined by subsequent survey. H.R. 4032 
would also authorize the appropriations of the funds needed to support 
the Departmental survey of the ``rights-of-way'' and all other actions 
required or authorized in the bill, with those surveys to be completed 
within a six-year period. With regard to the ``other actions 
required,'' the bill provides that the ``Federal Government shall be 
considered the applicant or grantee.''
    We note that the reference in section 8(c) of the bill to the 
regulation on cancellation is outdated and should be changed to 
correctly reference 25 CFR 169.404-409.
    The Department welcomes the opportunity to work with the Committee 
and the sponsor and co-sponsors of H.R. 4032 to achieve the goals of 
H.R. 4032. Thank you again for the opportunity to provide the 
Department's views.
    This concludes my statement and I would be happy to answer any 
questions the Committee may have.

    The Chairman. Thank you, Director LaCounte.
    Chairman Floyd.

  STATEMENT OF HON. JAMES R. FLOYD, PRINCIPAL CHIEF, MUSCOGEE 
                         (CREEK) NATION

    Mr. Floyd. Thank you, Mr. Chairman, Mr. Udall, Vice 
Chairman of the Committee, and my Senator, Senator Lankford and 
other members of the Committee that are here this afternoon.
    I am James Floyd, Principal Chief of the Muscogee Creek 
Nation. I am pleased to appear before you this afternoon to 
provide testimony on H.R. 2606, the Stigler Act Amendments of 
2018.
    The Act of August 4, 1947, 61 Stat. 731, commonly referred 
to as the 1947 Act or the Stigler Act, is a Federal law related 
only to restricted lands of the Five Civilized Tribes of 
Oklahoma, which include the Cherokee, Choctaw, Chickasaw Creek 
and Seminole.
    The 1947 Act created a detrimental disparity between the 
Five Tribes and all other Indian tribes regarding the 
restricted property allotments of their tribal members. The 
1947 Act established a one-half minimum blood quantum 
requirement to maintain the restricted status of former 
allotted lands based on the tribal member's certificate of 
degree of Indian blood.
    This one-half degree blood requirement imposed only on the 
Five Tribes is arbitrary and unjust. All other tribes, 
including the 33 other tribes in the State of Oklahoma, are 
excluded from this requirement.
    As one of the affected tribes, the Muscogee Creek Nation 
seeks to protect the rights of our tribal members by supporting 
the amendments to the Stigler Act. The tribal members in 
eastern Oklahoma should have the same right regarding our 
Indian land as the other 6.7 million Native Americans in the 
United States who strongly support H.R. 2606 in order for our 
tribes to preserve our lands the same as the other 573 tribes 
in the United States who own land.
    Tribal members and land are the basis for our jurisdiction, 
and jurisdiction is the basis for our sovereignty. Without 
amendment, the Stigler Act will continue to systematically 
destroy the land base of the Five Tribes by converting 
restricted Indian land into State fee land without the consent 
of the tribal members of the Five Tribes.
    I would like to clarify some possible misconceptions of 
H.R. 2606. It will not be retroactive. Only land that is 
currently held in restricted status will be eligible to 
maintain its Indian land status.
    Title to many of these allotted lands can be brought up to 
date to current ownership with the passage of these amendments. 
Tribal members will be able to probate the estate of their 
ancestors without the fear of losing the restricted status of 
their family lands because of blood quantum.
    Leasing, right-of-way and other economic development will 
be easier with clear title and ownership of the lands. There 
will be no loss of State or county income from property taxes. 
That portion of the Stigler Act, in particular Section 6(a), is 
not being amended, which sets out the taxable status of 
restricted land for the Five Tribes.
    The land base of the Five Tribes is an integral part of the 
culture and heritage of all tribal members of Eastern Oklahoma. 
It contains our homesteads, our family cemeteries, our 
traditional century-old churches and our ceremonial grounds. It 
is our hope for providing for our citizens now and in the 
future.
    It has been almost 117 years since the Muscogee Creek 
Nation allotted its tribally-owned land base to individual 
members pursuant to congressional order. Restrictions were 
enacted at that time with the purpose of keeping allotted lands 
in the hands of tribal citizens.
    The Stigler Act defied that intent. Today, no original 
allottees are living and only 133,399 acres of the 2.9 million 
acres of land originally allotted to the Muscogee Creek 
citizens remain, a tiny fraction of what was once a protected 
individual land base. If not resolved quickly, we could lose 
everything, our land, our history, our stability and our 
sovereignty.
    I am grateful to those on the Committee who are working to 
rectify this egregious injustice and to help our tribes have 
equal status with all other tribes. Though we can't get back 
what we lost, you can help us protect what remains.
    In closing, I ask your permission to submit for this 
hearing record the statement of the Inter-Tribal Council of the 
Five Civilized Tribes, of which the Muscogee Creek Nation is a 
member. This statement elaborates on the points I have raised 
today and is consistent with my remarks.
    Thank you for allowing me to appear before you this 
afternoon. I am prepared to answer any questions you may have.
    [The prepared statement of Mr. Floyd and the referenced 
information follows:]

 Prepared Statement of Hon. James R. Floyd, Principal Chief, Muscogee 
                             (Creek) Nation
    Mr. Chairman, members of the Committee:
    I am James Floyd, Principal Chief of The Muscogee (Creek) Nation. I 
am pleased to appear before you today to provide testimony on H.R. 
2606, the Stigler Act Amendments of 2018. The Act of August 4, 1947 (61 
Stat. 731), commonly referred to as the ``1947 Act'' or the ``Stigler 
Act,'' is a federal law related only to restricted lands of the Five 
Civilized Tribes of Oklahoma, which include the Cherokee, Choctaw, 
Chickasaw, Creek and Seminole.
    The 1947 Act created a detrimental disparity between these Five 
Tribes and all other Indian tribes regarding the restricted property 
allotments of their tribal members. The 1947 Act established a one-half 
minimum blood quantum requirement to maintain the restricted status of 
former allotment lands based on a tribal member's Certificate of Degree 
of Indian Blood. This one-half degree blood requirement imposed only on 
the Five Tribes is arbitrary and unjust. All other tribes, including 
the 33 other tribes in Oklahoma, are excluded from this requirement.
    As one of the affected Five Tribes, The Muscogee (Creek) Nation 
seeks to protect the rights of our tribal members by supporting the 
amendments to the Stigler Act. The tribal members in Eastern Oklahoma 
should have the same rights regarding our Indian land as the other 6.7 
million Native Americans in the United States. We strongly support H.R. 
2606 in order for our tribes to preserve our lands, the same as the 
other 573 tribes in the United States who own land.
    Tribal members and land are the basis for our jurisdiction, and 
jurisdiction is the basis for our sovereignty. Without amendment, the 
Stigler Act will continue to systematically destroy the land base of 
the Five Tribes by converting restricted Indian land into state land, 
without the consent of tribal members of the Five Tribes.
    I want to clarify some possible misconceptions of H.R. 2606:

  [bullet] It will not be retroactive.

  [bullet] Only land that is currently held in restricted status will 
        be eligible to maintain its Indian land status.

  [bullet] Title to many of these allotted lands can be brought up to 
        date to current ownership with the passage of these amendments.

  [bullet] Members will be able to probate the estate of their 
        ancestors without the fear of losing the restricted status of 
        their family lands because of blood quantum.

  [bullet] Leasing, right-of-way and other economic development will be 
        easier with clear title and ownership of the lands.

  [bullet] There will be no loss of state or county income from 
        property taxes. That portion of the Stigler Act, in particular 
        Sec. 6 (a), is not being amended which sets out the taxable 
        status of restricted land for Five Tribes.

    The land base of the Five Tribes is an integral part of the culture 
and the heritage of all tribal members in Eastern Oklahoma. It contains 
our homesteads, our family cemeteries, our traditional century-old 
churches, and our ceremonial grounds. It is our hope for providing for 
our citizens now and in the future.
    It has been almost 117 years since The Muscogee (Creek) Nation 
allotted its tribally-owned land base to individual members, pursuant 
to Congressional Order. Restrictions were enacted at that time with the 
purpose of keeping allotted lands in the hands of tribal citizens. The 
Stigler Act defied that intent. Today, no original allottees are living 
and only 133,399 acres of the 2.993 millions of acres of land 
originally allotted to Muscogee (Creek) citizens remain, a tiny 
fraction of what was once our protected individual land base. If not 
resolved quickly, we could lose everything: our land, our history, our 
stability, and our sovereignty.
    I am grateful to those on this Committee who are working to rectify 
this egregious injustice; to help our tribes have equal status with all 
other tribes. Though we can't get back what we lost, you can help us 
preserve what remains.
    In closing, I ask your permission to submit for this hearing 
record, the statement of the InterTribal Council of the Five Civilized 
Tribes, of which The Muscogee (Creek) Nation is a member. The statement 
elaborates on the points I have raised today and is consistent with my 
remarks. Thank you for allowing me to appear before you today and I am 
prepared to respond to any questions you may have.
         The (1) Map displaying total number of restricted fee and 
        unrestricted fee acres within the jurisdiction of the Five 
        Civilized Tribes in 1916 (2) Map displaying total number of 
        restricted fee and unrestricted feeacres within the 
        jurisdiction of the Five Civilized Tribes in 2015 (3) 
        Resolution 15-19 adopted by the Inter-tribal Council of the 
        Five Civilized Tribes on July 10th, 2015 have been retained in 
        the Committee files.
    Attachment
 Prepared Statement of Hon. Bill John Baker, Principal Chief, Cherokee 
  Nation; President, Inter-Tribal Council of the Five Civilized Tribes
    Mr. Chairman, I am Bill John Baker, Principal Chief of the Cherokee 
Nation, and President of the Inter-Tribal Council of the Five Civilized 
Tribes. I am pleased to provide testimony today on H.R. 2606, the 
Stigler Act Amendments of 2018, on behalf of the Inter-Tribal Council 
of the Five Civilized Tribes (Inter-Tribal Council). The Inter-Tribal 
Council is an organization comprised of the tribal governments of the 
Muscogee Creek Nation, Seminole Nation, Choctaw Nation, Chickasaw 
Nation and the Cherokee Nation. Together our tribes represent more than 
650,000 tribal citizens throughout the United States, or about a 
quarter of the entire population of Indian country.
    I am here today to support H.R. 2606, which amends an archaic law 
enacted in 1947 that unfairly burdens citizens of the Five Tribes. This 
law has led to devastating land loss, which is inconsistent with modern 
federal policy and practice toward Indian tribes to increase tribal 
land holdings and restore tribal homelands. It is time to amend this 
Termination Era law that originates from a less enlightened time when 
federal policy was designed to dramatically diminish tribal homelands. 
So today, I am here on behalf of our Five Tribes to respectfully ask 
you to remedy this longstanding injustice.
    I believe it is critical to first briefly examine the history of 
the lands of the Five Tribes, which is unique to all of Indian country.
    Unlike the reservations of other tribes, the United States did not 
hold title to the Five Tribes lands. Instead, at the insistence of our 
tribal leaders at the time of our removal from our ancestral homelands, 
the United States deeded fee simple title to those lands to each Tribe, 
in exchange for huge tribal cessions of lands in the southeastern 
portion of the United States. Perhaps foreseeing the struggles to come, 
the leaders of the Five Tribes did not want the United States to have 
any ownership interest in their new lands, which were located in an 
area that would one day become the state of Oklahoma.
    Because of this fee simple ownership, the United States had 
considerable difficulty forcing the Five Tribes to break apart their 
remaining tribal lands into individual allotments during the tribal 
land allotment era in the late nineteenth century. Despite these 
difficulties, Congress was ultimately successful in enacting a series 
of laws to force the Five Tribes to allot their lands. Due to the fee 
simple ownership of the tribe, tribal allotments were also held in fee 
simple by the individual Indian instead of held in trust by the United 
States as was common with other tribal allotments nationwide. There 
were, however, special restrictions on the owners' disposition of their 
allotments put in place by Congress. These restrictions prevented the 
tribal citizens from alienating, conveying, leasing, mortgaging or 
putting other liens or encumbrances on their allotments. The stated 
purpose of these restrictions was to keep allotted lands in the hands 
of tribal citizens.
    Almost immediately after the restricted fee allotments were issued 
to the citizens of the Five Tribes, however, non-Indian interests were 
intent upon removing those restrictions and obtaining the lands that 
belonged to the citizens of the Five Tribes. In the early parts of the 
twentieth century, several laws were passed by Congress to produce this 
result, by removing restrictions based on the degree of Indian blood 
quantum of the individual owner. The most recent such law was the 1947 
Act, also known as the Stigler Act, an uncodified law which prevents an 
Indian from inheriting land in restricted fee if he or she has a blood 
quantum that is below one-half degree of Indian blood. When restricted 
fee land is passed to heirs with less than one-half blood quantum, then 
all of the restrictions against alienation that have protected the 
property and its owner are stripped away forever.
    With this background in mind, I would like to turn to the modern 
issues facing the Five Tribes, and how this legislation helps address 
those challenges.
    The antiquated blood quantum requirement contained in the Stigler 
Act is unique to the Five Tribes. In no other tribe in the United 
States do the lands of tribal citizens lose their restricted status due 
to the blood quantum of the individual Indian. While these provisions 
of the Stigler Act were unusual enough at the time they were drafted, 
they are indefensible today and defeat the goals of modern federal 
policy. In an era where there is broad support for tribal self-
determination, and where federal dollars are devoted to increasing and 
protecting tribal land bases, it is time to put an end to the blood 
quantum based distinctions. The proposed amendments will bring some 
measure of parity to the citizens of the Five Tribes, and allow our 
citizens the opportunity to pass on their restricted Indian land to 
their children and grandchildren in restricted status. It is hard to 
overstate what this will mean to our citizens, who treasure their 
restricted allotments and the link they represent to both their family 
and their Nation.
    I would like the Committee to take note of what these amendments 
will not do. These amendments will not create new restricted Indian 
land. It will only allow the current restricted fee land to remain in 
restriction regardless of the blood quantum of the Indian. The bill is 
narrowly tailored only to reform the most problematic and archaic legal 
obstacles to the preservation of restricted land, and does not in any 
way impact the ability of state courts, acting as federal 
instrumentalities, to approve conveyance of surface or mineral 
interests, to approve oil and gas leases, or to administer an estate 
that contains restricted property.
    Included at the end of this testimony are two maps. The first map 
shows the number of restricted acres within the Five Tribes in 1916. At 
that time, the Five Tribes had more than 15 million acres of restricted 
land. The second shows that same area in 2015, when only a tiny 
fraction of that original acreage remained--just over 380 thousand 
acres. It is this fraction of remaining restricted fee land that we are 
seeking to protect with these amendments. This tiny fraction continues 
to diminish every year that this issue burdens the citizens of the Five 
Tribes.
    The technical amendments to the law are straightforward, and their 
impacts are limited to the Five Tribes and their citizens. Section 2 
provides new language that clarifies that lineal descendants by blood 
of an original enrollee whose name appears on the Final Indian Rolls of 
the Five Civilized Tribes may maintain their land in restricted fee, 
regardless of the degree of blood of the land owner. This would include 
the estates of Indians who died prior to the enactment of the 
amendments, unless the estate had been subject to a final order 
determining the decedent's heirs or had been conveyed previously by 
deed or other approved method. The amendments also clarify that an 
owner of restricted fee property can have the restrictions lifted from 
his or her property if that is the desire of the individual tribal 
citizen. The rest of the language makes small, technical changes 
necessary to eradicate the one-half blood quantum requirement from the 
various places it appears.
    In conclusion, while these amendments are limited and 
straightforward, the impact they will have on the Five Tribes and our 
citizens is enormous. For decades, the citizens of the Five Tribes have 
lived under a special set of laws that apply to only their lands. Even 
as the federal government has tried to enlarge and consolidate the land 
holdings of other tribes, grandparents in the Five Tribes have had to 
struggle with the knowledge that they are the last generation that will 
have the privilege of holding their family allotment as restricted 
Indian land.
    The purpose of the Stigler Act was to move Indian land from tribal 
ownership to non- Indian ownership, and the law has been devastatingly 
successful in accomplishing that goal. While H.R. 2606 will not reverse 
70 years of land loss, it would certainly help prevent even more of our 
tribal land from falling out of restricted status, and provide much-
needed parity to the owners of restricted allotments within the Five 
Tribes.
    I urge the Committee to favorably recommend this important 
legislation. Thank you for this opportunity to testify.

    The Chairman. Thank you.
    Vice Chairman Yankton.

 STATEMENT OF HON. DOUGLAS YANKTON, SR., VICE-CHAIRMAN, SPIRIT 
                           LAKE TRIBE

    Mr. Yankton. Good afternoon, Chairman Hoeven and Committee 
members.
    My name is Doug Yankton, I am an elected Vice-Chairman of 
the Spirit Lake Tribe, previously known as the Devils Lake 
Sioux Tribe. The Spirit Lake Tribe is a tribe that is in 
northeastern North Dakota and our reservation consists of 
approximately 245,000 acres of trust and fee land.
    As a representative of the Spirit Lake Tribe and our 
community, the most important responsibilities we have is to 
ensure the laws impacting our community foster community safety 
while protecting and preserving our inherent sovereign and 
jurisdictional authority. The Spirit Lake Tribe has gone on 
record to formally request the repeal of 60 Stat. 229, an Act 
that previously conferred criminal jurisdiction over on-
reservation misdemeanor crimes to the State of North Dakota.
    I am here today to request your support in passing S. 2788, 
a bill to repeal the Act previously conferring jurisdiction on 
the State of North Dakota over offenses committed by or against 
Indians on the Devils Lake Indian Reservation. The Spirit Lake 
Tribe has timely submitted formal written testimony on this 
matter.
    I would like to take this opportunity to briefly summarize 
the written testimony submitted to the Senate Committee on 
Indian Affairs, provide examples relevant to our concerns and 
highlight the impact that repeal will have.
    The Spirit Lake Tribe went on record in April of 1944 
requesting assistance to address criminal activity on what was 
then referred to as the Devils Lake Sioux Indian Reservation. 
At that time, there was no real law enforcement present on the 
reservation and no established tribal court.
    In response to the request for assistance, the United 
States Congress passed 60 Stat. 229, an Act which authorized 
the State of North Dakota to exercise jurisdiction on the 
Devils Lake Indian Reservation. Despite enactment of 60 Stat. 
229, the State of North Dakota has provided minimal law 
enforcement or prosecution services for on-reservation crimes. 
In more recent years, the State has been virtually nonexistent. 
The Spirit Lake Tribe passed Resolution A05-10-033 on December 
1st, 2009, requesting repeal of the statute.
    The Spirit Lake Tribe has spent more than 70 years 
developing our tribal judicial system infrastructure, and we 
now have the BIA law enforcement services, some tribal 
enforcement officers, a victim assistance program, Fish and 
Wildlife officers, tribal court, tribal prosecutors, juvenile 
presenting officers and public defenders. Additionally, we have 
incorporated diversionary programs and services into our 
justice systems to better meet the needs of our court-involved 
individuals and to address community safety.
    The State of North Dakota has, for the most part, respected 
tribal criminal jurisdictional authority. There have, however, 
been a few instances where the State relied on the statute to 
pursue criminal charges against enrolled members for on-
reservation activity, in conflict with existing tribal 
jurisdiction.The most troubling exercise of this authority came 
about during a period of jurisdictional conflict between the 
State and our tribal fish and wildlife departments regarding 
on-reservation authority. While the two departments worked 
through the regulatory conflicts, a fish and wildlife and other 
officers were charged with a crime by the State for 
impersonating a State Game and Fish officer.
    After meeting with State officials, the charges were 
ultimately dropped by the State. However, this is one example 
of the authority granted by the State of North Dakota under the 
statute that has been selectively used in a manner that 
interferes with our sovereignty. Such instances have been rare 
as the Spirit Lake tribe has worked to foster a good working 
relationship with the State, but it demonstrates how the Act at 
times can interfere with the government-to-government 
relationship.
    In written testimony submitted today, we have outlined the 
impact that the repeal would have. Namely, repeal of the Act 
would not disrupt or otherwise alter any existing Federal and 
tribal jurisdictional authority on the Spirit Lake Reservation. 
Repeal of the Act would renew extraordinary jurisdictional 
authority previously granted to the State of North Dakota which 
has rarely and inconsistently been exercised by the State in 
more than 70 years since its enactment. Repeal of the Act would 
align the State jurisdiction on the Spirit Lake Reservation 
with the authority being exercised by the State in all other 
reservations.
    I am pretty much out of time here, but I would like to 
thank the Committee for the opportunity to provide this oral 
testimony. As a tribal leader, I urge you to please pass S. 
2788. Thank you for your time.
    [The prepared statement of Mr. Yankton follows:]

Prepared Statement of Hon. Douglas Yankton, Sr., Vice-Chairman, Spirit 
                               Lake Tribe
    My name is Douglas Yankton, elected Vice-Chairman of the Spirit 
Lake Tribe, previously known as the Devils Lake Sioux Tribe. The Spirit 
Lake Tribe is located in northeastern North Dakota and our reservation 
consists of approximately 245,000 acres of trust and fee land. As a 
representative of the Spirit Lake Tribe one the most important 
responsibilities we have is to ensure the laws impacting our community 
foster community safety while protecting and preserving our inherent 
sovereign and jurisdictional authority. The Spirit Lake Tribe has gone 
on record to formally request the repeal of 60 Stat. 229, an Act that 
previously conferred criminal jurisdiction over on reservation 
misdemeanor crimes to the State of North Dakota. I am here today to 
request your support in passing ``S. 2788, a bill to repeal an Act 
previously conferring jurisdiction on the State of North Dakota over 
offenses committed by or against Indian on the Devils Lake Indian 
Reservation.''
    As a background on this matter, in April of 1944, following a 
referendum vote, the Devils Lake Sioux Tribal Council passed Resolution 
No. III. The referendum occurred prior to the formal ratification of 
the Constitution and Bylaws of the Devils Lake Sioux Tribe. Resolution 
No. III sought to continue state jurisdiction over misdemeanor crimes 
occurring on the Reservation. At the time there were community safety 
concerns and a significant lack of tribal justice system resources, 
including lack of law enforcement and no formally established tribal 
court. After the Tribe passed Resolution No. III, it was relied upon by 
the U.S. Congress to pass 60 Stat. 229 (1946). 60 Stat. 229 is a 
federal law that applies only to the Spirit Lake Reservation and it 
delegates authority to the State of North Dakota to prosecute crimes on 
the Spirit Lake Reservation regardless of who commits the crime.
    Since the 1944 referendum vote and 1946 federal law, the Spirit 
Lake Tribe has established BIA agency law enforcement, tribal law 
enforcement, a Fish and Wildlife Division and most importantly a Tribal 
Court. The Spirit Lake Tribal Court has been operational for decades 
and exercises both criminal and civil jurisdiction. The Tribal Court is 
staffed with a Chief Judge, Associate Judge, and a Clerk of Court 
within each of its three divisions. The Spirit Lake Tribe also funded a 
Tribal Prosecutor, a Juvenile Presenting Officer, and a Public 
Defender. The Tribe has further enhanced the tribal justice system 
through the establishment of a Traditional Diversionary Court and the 
establishment of a Law and Order Committee. The tribal justice system 
is served by Bureau of Indian Affairs law enforcement and also includes 
direct services for victims through the Spirit Lake Tribe Victim 
Assistance Program.
    With the great strides that the Spirit Lake Tribe has made in the 
past seventy plus years, there is no need for the State of North Dakota 
to prosecute crimes occurring on the reservation beyond what is 
permitted by federal laws generally applicable to Indian Country as a 
whole. In recent decades the state of North Dakota has not provided a 
consistent law enforcement or judicial presence relevant to on 
reservation crimes. The state of North Dakota has instead, relied upon 
this archaic law to selectively prosecute a very minimal number of 
crimes and to further justify their involvement in reservation crimes 
beyond what is typically exercised by other states or by the state of 
North Dakota on other reservations. Due to the significant changes to 
our tribal justice system infrastructure and the lack of involvement by 
the state of North Dakota relevant to on reservation crimes, the Tribal 
Council passed Resolution A05-10-033 on December 1, 2009 requesting the 
U.S. Congress to repeal 60 Stat. 229.
    If the Congress repeals 60 Stat. 229 the state of North Dakota 
would no longer have concurrent misdemeanor jurisdiction on the Spirit 
Lake Reservation but would retain criminal jurisdictional authority 
otherwise permitted by federal law that is consistent with 
jurisdictional authorities reflected across much of Indian Country. The 
repeal of 60 Stat. 229 would not have a negative impact on the state of 
North Dakota. In fact, the state of North Dakota would continue to have 
jurisdiction over crimes occurring on the reservation in accordance 
with existing federal law. Furthermore, the repeal of 60 Stat. 229 
would not create an jurisdictional gaps or otherwise interfere with the 
exercise of tribal, federal or state jurisdictional authority as it 
stands under existing law.
    To be clear, S. 2788 only repeals 60 Stat. 229, which is specific 
to the Spirit Lake Tribe, formerly known as the Devils Lake Sioux 
Tribe. A repeal of the Act would in no way impact or otherwise limit 
the applicability of the Major Crimes Act 18 U.S.C.  1153, 
Assimilative Crimes Act 18. U.S.C.  13 nor the General Crimes Act 18 
U.S.C.  1152, all of which serve to establish federal criminal 
jurisdiction within Indian Country, including the Spirit Lake 
Reservation. A repeal of the Act in question would not alter any 
current common law impacting criminal jurisdiction in Indian Country. 
Existing precedent pertaining to jurisdictional authority, established 
by cases such as Oliphant v. Suquamish, 435 U.S. 191 (1978)(finding 
that tribal courts generally lack criminal jurisdiction to criminally 
prosecute non Indians in tribal courts) or United States v. Lara, 541 
U.S. 193 (1994)(finding that tribes have the inherent authority to 
prosecute member and non-member Indians pursuant to the Indian Civil 
Rights Act as amended; also finding that the exercise of said authority 
is concurrent to the exercise of federal criminal jurisdiction), would 
not be altered in any manner. The Spirit Lake Tribe and justice system 
officials within the Spirit Lake Tribe would continue to exercise 
inherent criminal jurisdiction in a manner that is consistent with 
existing tribal law and the Indian Civil Rights Act, as we have been 
doing for decades. See 25 U.S.C.   1301-1304.
    In conclusion, the Spirit Lake Tribe requests that you pass S. 2788 
to formally repeal 60 Stat. 229 thereby supporting tribal efforts to 
move forward with criminal justice system enhancements while preventing 
unnecessary interference with tribal sovereignty by the state of North 
Dakota. S. 2788 is an important step to reinforcing existing current 
federal policy aimed at fostering tribal self-determination. On behalf 
of the Spirit Lake Tribe, I would like to thank you for the opportunity 
to provide this testimony and for your consideration the request for a 
formal repeal of 60 Stat. 229.

    The Chairman. Thank you, Vice Chairman.
    Chairman Enos.

  STATEMENT OF HON. BARNEY ENOS, JR., COUNCILMAN, GILA RIVER 
                        INDIAN COMMUNITY

    Mr. Enos. Good afternoon Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee.
    I am Barney Enos, Jr., Councilman from District 4 of the 
Gila River Indian Community. Thank you for the opportunity to 
testify today on behalf of the Community in support of H.R. 
4032, the Community's trust accounting legislation.
    H.R. 4032 is necessary to enable the Community to obtain 
the full benefits of the settlement the Community reached with 
the United States to resolve claims for mismanagement of the 
Community's trust resources. The Community filed its trust 
accounting case in 2006. In particular, the claims that the 
Community was most eager to resolve, and which this legislation 
addresses, claims related to undocumented Federal rights-of-way 
and claims related to the United States' failure to protect our 
reservation territorial boundaries.
    As part of its trust obligations, the United States has a 
duty to ensure that tribal trust property is protected, 
preserved and properly managed. Among other duties, the United 
States must maintain adequate records with respect to the trust 
property.
    In our lawsuit, the Community alleged that the United 
States failed in these duties to document many of the BIA 
roads, electrical transmission lines and irrigation 
infrastructure that crossed the reservation. In fact, 
approximately 3,600 acres of undocumented rights-of-way affect 
allotted and tribal trust land on the Community's reservation. 
Rent either has not been collected or cannot be accounted for 
by the United States.
    Rather than litigate, the Community entered into settlement 
negotiations with the United States. The settlement discussions 
resulted in a global settlement that included a $12.5 million 
payment from the United States for damages and this settlement 
legislation.
    Although restitution was important, what is most important 
to the Community is fixing the problem of undocumented Federal 
rights-of-way on the reservation. The lack of documentation for 
these rights-of-way is an obstacle the Community deals with on 
a daily basis.For example, the Community has a housing 
shortage, and efforts to solve this problem have been slowed by 
the lack of documentation for existing BIA roads and electrical 
transmission lines. We also experience difficulty 
rehabilitating Federal canals, even though our canal 
rehabilitation project received funding from the Arizona Water 
Settlements Act of 2004. Due to the lack of documentation for 
many of these canals, the BIA has taken the position that 
additional payments need to be made to gain access to these 
canals.
    However, the Bureau of Reclamation, which oversees the 
canal rehabilitation project, has taken the position that our 
water rights settlement funds cannot be used to acquire rights-
of-way for existing infrastructure. These contrary Federal 
positions have caused delays and have frustrated the 
implementation of the Arizona Water Settlements Act.
    H.R. 4032 solves these problems by approving a process to 
establish and confirm all of the Federal rights-of-way on the 
reservation through surveys conducted by the BIA that, once 
complete, will remove longstanding barriers to housing 
development and implementation of the Community's water 
settlement.
    H.R. 4032 also settles a dispute involving the northwest 
boundary of the reservation along the Salt River by fixing it 
in order to avoid any dispute with landowners to our north. Due 
to a number of surveying errors in the late 1800s and a lack of 
diligence to correct those errors in the early 1900s, northern 
lands of the Community's reservation were settled by non-
Indians. As a result, the Community has a valid title dispute 
between the Community and other parties, including the City of 
Phoenix.
    As part of the global settlement, the Community agreed to a 
fixed boundary, rather than the midpoint of the Gila River, in 
order to avoid any future title dispute. In exchange for losing 
the lands at issue, the Community identified BLM disposal lands 
that were contiguous to the reservation and that included a 
number of highly significant cultural resources and cultural 
sites throughout the land. The Community has been working with 
the BLM to navigate the disposal lands process to purchase 
lands using settlement funds and transfer the culturally 
sensitive lands to the Community.
    I would emphasize that because of the cultural significance 
of these lands, the Community has no plans to develop these 
lands and has agreed to a ban on any gaming eligibility as a 
condition to placing these lands into trust.
    In May, the BLM issued the Notice of Realty Action. Once 
purchased and transferred, H.R. 4032 authorizes placing these 
lands into trust on behalf of the Community. Only Congress can 
change the boundary and place these lands into trust. As such, 
H.R. 4032 is a critical part of the Community's global 
settlement with the United States.
    H.R. 4032 is a non-controversial, bipartisan piece of 
legislation that is absolutely critical to achieve the 
settlement terms that the Community agreed to in exchange for 
settling its Federal trust accounting case against the United 
States.
    Thank you for allowing me to testify. I am happy to answer 
any questions you may have.
    [The prepared statement of Mr. Enos follows:]

  Prepared Statement of Hon. Barney Enos, Jr., Councilman, Gila River 
                            Indian Community
    Good afternoon Chairman Hoeven, Vice Chairman Udall , and members 
of the Committee. Thank you for the opportunity to provide testimony on 
behalf of the Gila River Indian Community (``Community'') regarding 
H.R. 4032--the Gila River Indian Community Federal Rights-of-Way, 
Easements and Boundary Clarification Act.
    H.R. 4032 is critical legislation that is necessary to enable the 
Community to obtain the full benefits of the settlement the Community 
reached with the United States resolving federal litigation that 
originated in 2006. Importantly, this legislation will provide a 
process to document and legitimize existing Federal rights-of-way on 
the Community's lands that, once complete, will remove longstanding 
barriers to housing development and implementation of the Community's 
water settlement. In addition, this legislation settles a dispute 
involving the northwest boundary of the Reservation by resolving any 
potential disputes with land owners to our north, in exchange for 
placing Federal disposal lands that are culturally important to the 
Community into trust after the Community purchases these lands from the 
United States. H.R. 4032 is the product of a great deal of effort, and 
compromise, by the Community and the United States to successfully 
settle litigation and provide benefits to the Community that only 
legislation can accomplish.
I. Background
A. The Community's Trust Accounting Case
    On December 29, 2006, the Community brought a lawsuit against the 
United States in the United States District Court for the District of 
Columbia for an accounting of all of its trust assets and trust funds. 
Gila River Indian Community v. Kempthorne, et al., Case No. 1:06-CV-
02249-TFH (``Gila River Trust Case''). The Community's suit against the 
United States sought, among other things, a reconciliation of the 
Community's non-monetary trust assets for the alleged mismanagement of 
these resources by the United States. The Community's suit included 
breach of trust claims against the United States for failing to 
document Federal rights-of-way across the Reservation, and the United 
States' failure to accurately survey the Reservation's Northwestern 
boundary resulting in illegally patenting of lands to non-Indians.
1. Failure to Document Rights-of-Way on the Community's Reservation & 
        Trespass
    By various Acts of Congress, commencing with statutes adopted more 
than a century ago, Congress authorized the Secretary of the Interior 
to collect income from tribal trust property and to deposit such trust 
income in the United States Treasury and other depository institutions 
for the benefit of the tribes. \1\ By subsequent statutes, Congress 
directed that interest be paid on tribal trust funds, and required that 
such trust funds be invested. \2\ Pursuant to this statutory authority, 
the United States assumed control and management over trust property of 
the Community. Interior has approved leases, easements and grants of 
interest in trust lands of the Community, and as the Community's 
trustee, the United States has assumed responsibility for the 
collection, deposit and investment of the income generated by trust 
land of the Community.
---------------------------------------------------------------------------
    \1\ See e.g., Act of March 3, 1883, ch. 141, 22 Stat. 582, 590.
    \2\ See e.g., Act of February 12, 1929, ch. 178, 45 Stat. 1164 
(codified as amended at 25 U.S.C.  161b (1930)); Act of June 24, 1938, 
52 Stat. 1037 (codified as amended at 25 U.S.C.  162a (1994)).
---------------------------------------------------------------------------
    As part of its trust obligations, the United States has a duty to 
ensure that tribal trust property and trust funds are protected, 
preserved and managed so as to produce a maximum return to the 
Community consistent with the trust character of the property. Among 
other duties, the United States must maintain adequate records with 
respect to the trust property; maintain adequate systems and controls 
to guard against error or dishonesty; provide regular and accurate 
accountings to the Community; and refrain from self-dealing or 
benefiting from the management of the Community's trust property.
    In the Gila River Trust Case the Community alleged that the United 
States failed in these duties to the Community. While the United States 
controls all the books and records of accounts affecting trust funds 
and trust property, the United States never rendered an audit or 
accounting to the Community for its trust property or monies. The 
Community further alleged that the United States failed to establish 
any effective system or provision for regular or periodic accounting 
for the trust property and funds. As a result, the United States kept 
the Community, as the trust beneficiary, uninformed as to the trust 
property it owns, what income the trust property produced, and what 
disposition was made of the income. In the Gila River Trust Case the 
Community alleged that the United States' mismanagement of the 
Community's trust property and funds resulted in losses to the 
Community as the trust beneficiary.
    The United States has provided the Community with records 
pertaining to various rights-of-way through the Reservation. Based on 
the records received from the United States, it became apparent that 
many of the roads across the Reservation do not have legally 
established rights-of-way. Based on the best information available, as 
provided by the United States, a total of 3,600 acres of undocumented 
rights-of-way affect allotted and tribal trust land, which has been in 
Federal use and possession since 1930. With respect to these 3,600 
acres, no documentation of rights-of-way can be found; indeed, such 
documentation may never have existed. Rent either has not been 
collected or cannot be accounted for by the United States. In addition 
to the United States' breach of trust for failure to document rights-
of-way across the Reservation, failure to collect rent, and failure to 
account for the Community's and allottees' trust assets, the Community 
alleged that the United States was also liable for the Community's and 
allottees' trespass claims for rights-of-way for federal projects that 
were not legally documented and as a consequence resulted in loss of 
rent due to the Community and allottees.
    These claims arise as a matter of federal common law. \3\ To 
determine the United States' potential liability with respect to these 
claims, the Community again examined when each undocumented right-of-
way came into use and looked at the current market value of the land at 
that time and how rent would have been calculated. In particular, the 
Community looked at the date each undocumented right-of-way began in 
order to determine which, if any, federal regulations applied to 
calculate the appropriate compensation. For instance, beginning in 
1929, the first set of comprehensive regulations governing right-of-
ways provided guidance on calculating appropriate charges which 
included an appraisal of the value of the land and any damage which 
would result therefrom. \4\ The 1968 regulations further provided that 
consideration for any right-of-way granted or renewed ``shall be not 
less than the appraised fair market value of the rights granted, plus 
severance damages, if any, to the remaining estate.'' \5\ Current 
statutes for right-of-ways require the company to make payment to the 
Secretary for the benefit of the Tribe, of full compensation for such 
right-of-way, including all damage to improvements and adjacent lands. 
\6\ Together, these statutes and regulations make clear that had the 
United States documented these rights-of-way as it was required to do, 
it should have collected rent based on the fair market value of the 
land for the benefit of the Community and affected allottees.
---------------------------------------------------------------------------
    \3\ See Oneida Cty., N.Y. v. Oneida Indian Nation of New York 
State, 470 U.S. 226 (1985) (tribal property rights are protected by 
federal common law). In Oneida County, the Supreme Court read United 
States v. Santa Fe Pacific R. Co, 314 U.S. 339 (1941), as holding that 
``Indians have a common-law right of action for an accounting of all 
rents, issues and profits against trespassers on their land.'' Oneida 
County, 470 U.S. at 235-36; see also United States v. Milner, 583 F.3d 
1174, 1182 (9th Cir. 2009) (citing United States v. Pend Oreille Pub. 
Util. Dist. No. 1, 28 F.3d 1544, 1549 n. 8 (9th Cir.1994)) (Federal 
common law governs an action for trespass on Indian lands.).
    \4\ See DEP'T OF THE INTERIOR, REGULATIONS CONCERNING RIGHTS OF WAY 
OVER INDIAN LANDS, at  78 (1929) (available at https://www.doi.gov/
sites/doi.opengov.ibmcloud.com/files/T-22078.pdf).
    \5\ 33 Fed. Reg. 19803, 19807 (Dec. 27, 1968) (codified at 25 
C.F.R.  161.12 (1968)).
    \6\ See 25 U.S.C.   314, 319.
---------------------------------------------------------------------------
2. Failure to Accurately Survey the Reservation's Northwesterly 
        Boundary
    In 1867, William Pierce conducted the first significant survey of 
the area surrounding the confluence of the Salt and Gila Rivers. Pierce 
was retained to survey a baseline 36 miles to the east of the initial 
point--which was located at the intersection of the Salt and Gila 
Rivers--and a meridian 96 miles north of the initial point. The two 
lines surveyed by Pierce constituted the Gila and Salt River base and 
meridian and were used in later surveys of the area.
    In 1868, Wilfred Ingalls surveyed township lines in the Phoenix 
area. This work resulted in the first approved Government Land Office 
(GLO) plat maps. Ingalls also conducted the first GLO survey of the 
Salt River channel (``Ingalls Survey''). As a result of the Pierce and 
Ingalls surveys, a map of Township 1 North, Range 1 East--within which 
the land at issue in this letter is located--was produced.
    The Community's Reservation was first created by statute in 1859 
and was subsequently expanded by a series of Executive Orders. 
President Rutherford B. Hayes signed one of these Executive Orders on 
June 14, 1879, which established the northwesterly corner and expanded 
the northern boundary of the Community's Reservation to the Salt River 
as follows:

         Beginning at the northwest corner of the old Gila Reservation; 
        thence by a direct line running northwesterly until it strikes 
        Salt River 4 miles east from the intersection of said river 
        with the Gila River; thence down and along the middle of said 
        Salt River to the mouth of the Gila River; thence up and along 
        the middle of said Gila River to its intersection with the 
        northwesterly boundary line of the old Gila Reservation; thence 
        northwesterly along said last described boundary line to the 
        place of beginning. (Emphasis added).

    In 1895, the United States employed Lewis Wolfley to survey the 
northern boundary of the Reservation. Wolfley was erroneously 
instructed to establish the boundary at the ``left bank'' of the Salt 
River--the Reservation side of the river. This error would be the first 
in a series of errors committed by the government with regard to 
surveying and marking the northern boundary of the Reservation. In 
1898, following its completion, the Wolfley survey was rejected by the 
federal government because the northern boundary of the Reservation had 
been marked at the left bank of the Salt River, rather than the 
``middle of the. . .Salt River'' as called for in President Hayes' 
Executive Order of 1879. As a result, the GLO Commissioner ordered the 
Surveyor General to have the northern boundary resurveyed.
    Between 1910 and 1912, Guy P. Harrington was assigned to survey the 
entire Reservation for the purpose of preparing the land to be divided 
into individual allotments. Harrington surveyed 23 full or fractional 
townships within the Community. On July 29, 1919, the GLO sent a letter 
(``The 1919 Letter'') to the Surveyor General for Arizona approving 
certain portions of Harrington's survey, providing detailed 
instructions for correcting certain problems with the survey, and 
containing directives for new work to be performed on land since added 
to the Reservation.
    The GLO, in order to prevent further encroachment on the 
Community's land, instructed the Land Office in Phoenix to cease the 
disposal of land immediately adjacent to the Reservation. In The 1919 
Letter, the GLO explained that the encroachment upon the Community's 
land resulted from the failure to timely survey the Reservation's 
boundaries in the wake of President Hayes' 1879 Executive Order.
    To remedy these prior mistakes, the GLO ordered the Surveyor 
General to resurvey the area once more, with specific instructions to 
set the Reservation's northern boundary at the middle of the old 
channel of the Salt River as it existed on June 14, 1879. This project 
was assigned to Harrington, one of the men responsible for the 
partially approved and partially rejected (as erroneous) 1910-1912 
surveys. Harrington was furnished with a copy of the Ingalls Survey and 
instructed to interview old settlers in the area. Although Harrington 
allegedly made a ``concerted'' effort to establish the position of the 
river as it existed in 1879, he completed the survey in just two 
months. The Commissioner accepted the new Harrington survey on November 
3, 1920 (``Harrington Survey''). \7\
---------------------------------------------------------------------------
    \7\ By 1919 when the Harrington Survey was conducted and over time 
since then the middle of the Salt River has moved northward. Also, in 
June 1914, C.R. Olberg oversaw a table-top survey of the northern 
boundary of the Reservation. This survey accurately depicted the 
location of the middle of the main channel of the Salt River but was 
not used by Harrington.
---------------------------------------------------------------------------
    However, in performing his survey Harrington ignored the directives 
of the GLO contained within the 1919 Letter. As a result Harrington, 
inter alia, inaccurately surveyed the mid-point of the Salt River and 
failed to take into account the northerly accretion of the river. \8\ 
Thus, the Community believes that as a result of the Harrington Survey 
errors and the further northward movement of the Salt River since that 
time, the Community has lost land on the northern portion of its 
Reservation due to accretion.
---------------------------------------------------------------------------
    \8\ ``Accretion'' is the ``[t]he gradual accumulation of land by 
natural forces. . . .'' Accretion, BLACK'S LAW DICTIONARY (7th Ed. 
1999). The doctrine of accretion provides that the grantee of land 
bounded by a body of water gains ownership of any land that is 
uncovered by the gradual and imperceptible movement of the body of 
water. Bonelli Cattle Co. v. Arizona, 414 U.S. 313, 325-326 (1973), 
overruled on other grounds by Oregon ex rel. State Land Bd. v. 
Corvallis Sand & Gravel Co., 429 U.S. 363, 371 (1977).
---------------------------------------------------------------------------
    As a result of the foregoing, the Community alleged the northern 
boundary of the Reservation is actually located north of the boundary 
inaccurately relied upon by the City of Phoenix and others. The 
Community further contended that the United States, in accepting the 
erroneous and fixed boundary, and issuing patents for land based on the 
Harrington Survey, transferred the Community's Reservation lands to 
various parties in violation of the law, including, but not limited to, 
the Non-Intercourse Act, 25 U.S.C.  177.
    In addition, since the time of the Harrington Survey the middle of 
the River has moved north and the United States, as trustee, failed to 
adequately protect and enforce the Community's boundary. This resulted 
in potential boundary disputes with the City of Phoenix \9\ and private 
individuals who own land adjacent to the Salt River in Maricopa County, 
which the Community asserted encroaches on land rightfully granted to 
and owned by the Community.
---------------------------------------------------------------------------
    \9\ For example, due to the United States' survey errors the City 
of Phoenix constructed a wastewater treatment plant, which has been and 
is currently discharging effluent and the materials contained within 
such effluent onto land rightfully granted to and owned by the 
Community. Moreover, the City of Phoenix is causing twice-treated 
effluent to enter the Reservation through recharge of the aquifer 
underlying the Community's northern boundary.
---------------------------------------------------------------------------
B. Gila River Trust Case Settlement Agreement
    Rather than litigate the case in Federal Court, the Community 
entered into settlement negotiations with the United States. The 
settlement discussions resulted in a global settlement that includes 
the Joint Stipulation of Settlement, BLM land transfer, BIA letter, and 
settlement legislation (H.R. 4032) discussed below.
1. Joint Stipulation of Settlement
    The Joint Stipulation of Settlement is a settlement agreement 
between the Community and the United States that resolves and settles 
the Community's claims in the Gila River Trust Case. Under the Joint 
Stipulation of Settlement the Community waived its claims against the 
United States through the date of entry of the Joint Stipulation for 
its failure to provide a historical accounting, the United States' 
mismanagement of the Community's non-monetary trust assets or 
resources, the United States' mismanagement of the Community's trust 
funds and the United States' failure to perform trust duties related to 
the management of trust funds and non-monetary trust assets or 
resources. In particular, the Community waived its claims against the 
United States for its failure to document Federal rights-of-way (roads, 
electric, and irrigation) across the Reservation. The Community also 
waived its claims against the United States related to the boundary 
dispute for the Northern boundary of the Reservation.
    Under the Settlement, the Community explicitly retained all future 
claims of any kind, as well as its claims related to water rights, 
federal law hunting, fishing, trapping and gathering rights, federal 
laws of general application for the protection of the environment and 
the Community's claims related to the United States' failure to perform 
investment duties for the Lower Colorado River Basin Development Fund.
    In exchange for waiving these claims and dismissing the Gila River 
Trust Case with prejudice, the United States paid the Community 
$12,500,000.00 (Twelve Million and Five Hundred Thousand Dollars). 
Further, pursuant to the Settlement the Community accepted as accurate 
the balances of all of the Community's trust fund accounts based upon 
the most recent Statements of Performance issued by the Office of the 
Special Trustee. The United States will continue to provide periodic 
Statements of Performance as it has been doing since 1995.
    The Community and the United States approved the Joint Stipulation 
of Settlement and filed the fully executed Joint Stipulation of 
Settlement with the D.C. District Court on June 22, 2016. The Court 
granted the Joint Stipulation of Settlement that same day by minute 
order. On March 20, 2017 the Community and the United States filed a 
Joint Stipulation to Dismiss the Gila River Trust Case with prejudice.
2. BLM Land Transfer
    As part of the overarching global settlement, the Community pursued 
the transfer of approximately 3,400 acres of BLM land to the Community 
as replacement for lands lost due to the Community agreeing to a fixed 
boundary along the Salt River. As part of its authority under the 
Federal Land Policy and Management Act (FLPMA) BLM completed the Lower 
Sonoran Resource Management Plan Record of Decision (``Lower Sonoran 
RMP'') for management of over 930,200 acres of Federal lands in 
Maricopa, Gila, Pima, Pinal and Yuma Counties in central and southern 
Arizona. \10\ The Lower Sonoran RMP identified lands for disposal and 
provided legal descriptions for such lands available for disposal. \11\
---------------------------------------------------------------------------
    \10\ DEP'T OF THE INTERIOR, LOWER SONORAN RECORD OF DECISION & 
APPROVED RESOURCE MANAGEMENT PLAN, at V-VI (2012) (Letter from Emily 
Garber, Field Manager) (available at https://eplanning.blm.gov/epl-
front-office/projects/lup/11856/40127/42156/01-LSDA_ROD-
ARMP_FINAL_2012-09-19_web-with-Links_sans-map-pages.pdf).
    \11\ See id., at Appendix C.
---------------------------------------------------------------------------
    During the public comment period of the Lower Sonoran RMP process, 
the Community requested that a number of parcels of BLM land be 
considered for disposal in the Lower Sonoran RMP. \12\ BLM made a 
determination that certain parcels met the requirements in 43 U.S.C. 
1713 and included such parcels in the final Lower Sonoran RMP, some of 
which included the lands the Community had requested and identified for 
disposal. \13\ BLM's identification of such lands for disposal as part 
of the Lower Sonoran RMP explicitly allowed for the sale of such 
parcels. \14\
---------------------------------------------------------------------------
    \12\ See Letter from Gila Governor Williams Rhodes to Emily Garber, 
Field Manager, BLM (July 30, 2009) and Letter from Gila Governor 
William Rhodes to Emily Garber, Field Manager, BLM (April 27, 2010).
    \13\ See Lower Sonoran RMP, supra note 12 at Appendix C.
    \14\ See also 43 C.F.R. 2710.0-6.
---------------------------------------------------------------------------
    During the settlement negotiations, and as an essential component 
of the overall settlement, the Community met with BLM officials and 
indicated the Community's continued interest to purchase the specific 
parcels that were contiguous to the Reservation and that included a 
number of highly significant cultural resources and cultural sites 
throughout the tracts. \15\
---------------------------------------------------------------------------
    \15\ See Gila River Indian Reservation and Lands to be Taken into 
Trust Status Map included as an attachment to this testimony. The Map 
identifies the BLM disposal land that is of cultural significance to 
the Community. There are approximately 3,185 acres located in the 
Estrellas that are contiguous to the Northwest portion of the 
Reservation and approximately 200 acres adjacent to the southern 
boundary of the Reservation. See also Letters from Maricopa County and 
City of Phoenix included as attachments to this testimony.
---------------------------------------------------------------------------
    In June of 2015 the BLM agreed to work with the Community to 
transfer the identified BLM disposal land to the Community. Since that 
time the Community agreed to provide funds in a Contributed Funds 
Agreement in order to facilitate the BLM perform the necessary work to 
effectuate the land transfer. In coordination with the Office of 
General Office, Tribal Historic Preservation Office, Cultural Resources 
and Community Department of Environmental Quality, the Community worked 
with BLM to finalize the Notice of Realty Action, which was published 
in the Federal Register on May 29, 2018. Public scoping was completed 
over the summer and work is being done to complete the necessary 
cultural and environmental review needed to finalize the transfer. Upon 
completion of the environmental and cultural review and issuance of a 
Finding of No Significant Impact, the Community will purchase the BLM 
land using funds from the settlement. H.R. 4032 authorizes the land, 
once transferred after the Community purchases the BLM lands, to be 
placed into trust on behalf of the Community.
3. BIA Letter
    As part of the settlement negotiations, the Community and the 
United States discussed the need for federal legislation and the 
Administration's support of such legislation, in order to provide non-
monetary relief regarding the undocumented rights-of-way on the 
Reservation, the northwesterly boundary of the Community's Reservation 
and the BLM land transfer. The Bureau of Indian Affairs issued a letter 
agreeing to work with the Community in a good-faith manner to prepare, 
introduce, and support the Community's legislative proposal in the 
114th, 115th and 116th Congresses. \16\
---------------------------------------------------------------------------
    \16\ See BIA Letter included as an attachment to this testimony.
---------------------------------------------------------------------------
4. Settlement Legislation
    As discussed more fully below, federal legislation was needed to 
effectuate the benefits under the Settlement. Specifically, the 
Community needed to have a mechanism to legally establish the Federal 
rights-of-way on the Reservation. Since the rights-of-ways all traverse 
some allottee lands, allottees would have to have consented to the 
rights-of-ways, and the United States was unable to provide the consent 
itself on behalf of allottees. Congress, through federal legislation, 
however, can provide the legal basis to establish the Federal rights-
of-ways in an efficient manner. Thus, H.R. 4032 is an innovative 
solution to solve the thorny problem of undocumented Federal rights-of-
way that plagues much of Indian Country. The legislation also 
importantly establishes the Northwest Reservation boundary and 
authorizes and directs the placement of the BLM lands into trust status 
for the Community, all of which requires Congressional action. \17\
---------------------------------------------------------------------------
    \17\ Section 210 of the Gila River Indian Community Water Rights 
Settlement Act of 2004 explicitly provides that ``[t]he Community may 
seek to have legal title to additional land in the State located 
outside the exterior boundaries of the Reservation taken into trust by 
the United States for the benefit of the Community pursuant only to an 
Act of Congress enacted after the date of enactment of this Act 
specifically authorizing the transfer for the benefit of the 
Community.'' Gila River Indian Community Water Rights Settlement Act, 
Pub. L. 108-451, 118 Stat.3523 (2004) (emphasis added).
---------------------------------------------------------------------------
II. H.R. 4032: Settlement Legislation
    In addition to the Settlement Agreement that was filed in Federal 
court, federal legislation is also necessary for the Community to 
effectuate the settlement terms agreed to by the Community and the 
United States. Importantly, H.R. 4032 will:

         (1) establish, ratify, document, and confirm the Federal 
        electrical, irrigation, and road rights-of-way and easements 
        that exist within the exterior boundaries of the Reservation as 
        of the date of the enactment of the Act;

         (2) establish a fixed location of the northern boundary of the 
        Reservation and to provide for the Secretary of the Interior to 
        ensure that the northern boundary is resurveyed and marked in 
        conformance with the public system of surveys;

         (3) authorize and direct the Secretary to place certain lands 
        into trust for the benefit of the Community;

         (4) substitute the benefits provided under this Act to the 
        Community, its members and allottees for any claims that the 
        Community, its members and allottees may have had in connection 
        with alleged failures relating to the northern boundary of the 
        Reservation and the documentation and management of Federal 
        rights-of-way on the Reservation; and

         (5) authorize the funds necessary for the United States to 
        meet the obligations under this Act. \18\

    \18\ See H.R. 4032, Section 3.
---------------------------------------------------------------------------
Section 5. Land Into Trust For the Benefit of the Community
    H.R. 4032 provides the mechanism to place the Lower Sonoran lands, 
approximately 3,400 acres of BLM disposal land, into trust on behalf of 
the Community once the lands are transferred through the FLPMA disposal 
process. As discussed above, the Community is working with the BLM to 
finalize this process and expects that the process will be completed 
later this year. The Community will use the Settlement funds to 
purchase the disposal lands from the BLM for fair market value. Once 
the transfer is finalized, H.R. 4032 authorizes and directs the 
Secretary to place such lands into trust status for the benefit of the 
Community.
    Given the cultural significance and remoteness of these lands, the 
Community does not plan to develop these lands. Rather, the Community 
plans to protect these lands in order to preserve the documented 
cultural properties such as plant, animal and raw material resource 
gathering areas, sites of ideological and religious significance (i.e. 
rock art, rock shelters, and shrine sites) and trail systems and 
transportation routes that entail ideological and religious 
significance with historic and prehistoric Community settlements. \19\
---------------------------------------------------------------------------
    \19\ See Gila River Indian Community Council Resolution GR-006-17 
Designating Komatke Do'ag/Vii Alh also known as the Sierra Estrella 
Mountain Range, as a sacred place and traditional cultural property of 
the Gila River Indian Community (January 18, 2017) included as an 
attachment to this testimony.
---------------------------------------------------------------------------
    While the Community has no plans to develop the lands, H.R. 4032 
provides an explicit prohibition of gaming on the Lower Sonoran BLM 
disposal lands that shall be placed in trust in order to clarify that 
no gaming will take place on these lands. In particular, Section 5(d) 
provides that ``Class II and class III gaming under the Indian Gaming 
Regulatory Act (25 U.S.C. 2701 et seq.) shall not be allowed at any 
time on the land taken into trust under subsection (a).''
Section 6. Establishment of Fixed Northern Boundary
    Section 6 of H.R. 4032 establishes the Northwestern boundary of the 
Reservation along the Salt River to settle the boundary dispute by the 
Community relinquishing land that is currently part of the Reservation 
in order to avoid a title dispute with the City of Phoenix and private 
land owners. \20\ The Community's Northwestern boundary of the 
Reservation will be modified to be a fixed and permanent boundary as 
established by the Harrington Survey, as shown on the plat and 
described in the field notes. Subject to available appropriations, the 
modified Reservation boundary will be surveyed and clearly marked. The 
Secretary of the Department of the Interior will be required to publish 
the modified survey in the Federal Register. This shall constitute a 
final resolution of the Community's Northwest Reservation boundary 
dispute.
---------------------------------------------------------------------------
    \20\ See Gila River Indian Reservation and Lands to be Taken into 
Trust Status Map included as an attachment to this testimony. The Map 
shows where the Northwestern boundary at issue is located.
---------------------------------------------------------------------------
Section 7. Satisfaction and Substitution of Claims
    Section 7 confirms that the benefits provided to the Community, its 
members, and allottees are equivalent to or exceed the claims the 
Community, its members, and allottees may possess as of the date of 
enactment of the Act.
Section 8. Federal Rights-of-Way
    Section 8 of H.R. 4032 establishes, ratifies and confirms all of 
the rights-of-way on the Reservation. The specific location and 
dimensions of the rights-of-way will be determined through surveys 
conducted by the Bureau of Indian Affairs, or its subcontractor. The 
legislation provides specific language to allow for cancellation of 
rights-of-way pursuant to 25 CFR 169.404-409 or by written request by 
the Community. However, once the rights-of-way are established, 
ratified and confirmed, all other rights-of-ways or easements on the 
Reservation shall be considered valid only to the extent that they have 
been established in accordance with applicable Federal statute and 
regulation specifically governing rights-of-ways or easements on Indian 
lands. During the House consideration of H.R. 4032, between the 
legislative hearing and the Full Committee mark-up, the Community 
worked with Interior and the Committee to incorporate some technical 
revisions. These technical revisions were inserted to address 
Interior's request to conform to current terminology for rights-of-way 
regulations and to properly conform to Interior's documentation and 
recording practices. Those technical revisions are reflected in the 
legislation that the House passed and that is before the Committee 
today.
Section 9. Survey
    Section 9 of H.R. 4032 provides six (6) years after enactment of 
the Act, for the Bureau of Indian Affairs to complete a survey of each 
of the Federal rights-of-way established under the Act and to publish 
those rights-of-way surveys to be published in the Federal Register. 
The Bureau of Indian Affairs is authorized to complete the surveys 
itself or contract with the Community or a third party to complete the 
surveys.
III. Conclusion
    H.R. 4032 is a non-controversial, bi-partisan piece of legislation 
that is absolutely critical to achieve the settlement terms that the 
Community agreed to in exchange for settling its federal trust 
accounting case against the United States. The legislation represents a 
compromise and savings to the United States' resources that would 
otherwise have been required if the Community further litigated the 
Gila River Trust Case. The Community worked closely with the United 
States to address technical revisions to the legislation that were 
incorporated and ultimately passed by the House. Moreover, the 
legislation provides a groundbreaking solution to the problem of 
undocumented Federal rights-of-way that is not unique to the Community 
and which could serve as a template for other tribes that are 
experiencing similar problems. Finally, H.R. 4032 provides certainty 
and eliminates the possibility of further litigation regarding the 
Northwestern boundary of the Reservation while restoring culturally 
significant lands to the Reservation.
    The Community thanks the Committee for holding a hearing on this 
important piece of legislation and we look forward to passing this bill 
during the lameduck session.

    Attachments
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. Thank you to all the witnesses. We will now 
turn to five-minute rounds of questioning.
    I would like to start with Director LaCounte. Director 
LaCounte, in regard to S. 2788, how would this bill affect the 
work of BIA law enforcement on the reservation, including 
intergovernmental or interagency coordination?
    Mr. LaCounte. The effect would be no problem at all for us. 
It would also allow the tribe the opportunity to take on some 
of those responsibilities if they so chose to. We are not 
pushing that or anything, but it would allow that to happen. It 
would just really make things much clearer and right on the 
Spirit Lake Reservation.
    The Chairman. Vice Chairman Yankton, again in regard to 
2788, what steps will the tribe's justice and public safety 
systems be taking in order to be prepared for administering law 
enforcement, and are you getting enough support for your law 
enforcement efforts from the Federal Government, specifically 
BIA?
    Mr. Yankton. I don't know if you what to get into that 
right now. That could be a long story.
    The Chairman. You can give us the short version.
    Mr. Yankton. I think if this was to repeal, we as a tribe 
would look more to probably wanting to implement more tribal 
police officers to work alongside with the BIA. But even there, 
there was a little friction in the past, depending on who is 
the chief of police, depends on the type of services and what 
we could work through.
    But I think ultimately the goal here is to keep that 
identity as a sovereignty. I don't mean any disrespect to my 
ancestors. The well-being of why they wanted the protection for 
policing on our reservation back then was because we had 
absolutely nothing. The BIA was not even in existence.
    Back in the 1940s when they enacted this, they wanted the 
protection of the State to police us. Seventy years later, I 
think we are very well capable of working with the BIA and 
providing that policing protection within our boundaries today.
    The Chairman. Chief Floyd, you mentioned that lifting the 
blood quantum requirement would make leasing and economic 
development easier. Can you elaborate on that in terms of 
economic development?
    Mr. Floyd. Yes, Mr. Chairman.
    Essentially, the process will be easier in that presently, 
like in the example of the Muscogee Creek Nation, we have 
several hundred cases waiting to be probated. Citizens are 
either reluctant or fearful to have it probated because they 
would be lost out of restricted status. We do not the clear 
title of the lands showing all the heirs.
    If the Stigler Act amendments are passed, then members of 
the nation would be more willing to come forward to have their 
land probated. We would have a better record of the ownership, 
the heirs and the partitions of all the land. It would make the 
job of oil and pipeline companies and others who want to do 
business with the tribe easier because their work would be 
easier. They would have a better, clearer title than we have at 
present.
    The Chairman. Councilman Enos, in regard to the Gila River 
Indian Community, do you have plans as far as how you would 
develop the lands or any portion of the lands once they are 
reacquired?
    Mr. Enos. Chairman, currently the plans for the acreages 
that we would be acquiring are merely for that of protection 
and preservation. The cultural significance, the matters that 
are present there with respect to the [phrase in Native 
tongue], those that have gone before us in the Community, are 
of great importance. So are our efforts and our need to develop 
and take those lands further. There is just nothing there right 
now. Our efforts are to protect and preserve and just conserve.
    The Chairman. At this point, I will turn to Senator 
Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman. Thank you to the 
Vice Chairman for allowing me to go first.
    First off, I want to say to all of the tribal 
representatives here, you have made incredibly compelling cases 
for the legislation. I find some regret that you have to come 
here, given the fact that you are all sovereign and that you 
have the ability to run your own business. But I hope the 
Chairman and Vice Chairman can move these bills quickly.
    I want to applaud you, Mr. LaCounte. I don't know the last 
time someone came over the BIA saying, yes, yes, yes. We are 
very excited about that. It is rare indeed but I think this is 
a level of cooperation on all these bills that we need if we 
are going to move them forward. I want to thank you for that.
    As you can see, Mr. LaCounte, from our earlier discussion, 
one of the priorities that we have for Indian Country in the 
next many years is going to be public safety. We are very 
concerned about inadequate staffing, very concerned about 
jurisdictional challenges, very concerned about the level of 
crime, whether it is violent crime or misdemeanor crime 
occurring in Indian Country, especially in North Dakota, but 
really, across the Country.
    Can you give me a sense, coming into the next budget year, 
can you give me a sense of what you are requesting as Acting 
Director of BIA to improve the quality of law enforcement in 
Indian Country in those areas where you have primary 
jurisdiction?
    Mr. LaCounte. I am not prepared to give you a sense of what 
that is. It is embargoed, I am sorry.
    Senator Heitkamp. Well, I think it goes back to our 
frustration here which is that we can't keep doing what we are 
doing and getting a better result. It is just not going to 
work. We need advocacy within the Department of the Interior, 
within OMB. We need advocacy to actually correct these 
problems.
    I have had these conversations with former Attorney General 
Jeff Sessions, I have had these conversations with Director 
Wray, I have had these conversations with your predecessor. I 
continue to experience a lot of frustration about the lack of a 
plan and the lack of an appropriate assessment of how you can 
work in a cooperative, sovereign-to-sovereign relationship with 
people like Vice Chairman Yankton to provide that safety net, 
that security. We know it is not there right now, whether it is 
trying to access DEA, whether it is trying to make sure there 
is enough FBI agents, or whether it is just making sure your 
officers are trained and ready and available.
    I think a good example of the challenges we have right now 
is down at Standing Rock. I think there are maybe 12 officers, 
sworn officers that belong there. Maybe we have seven. We 
obviously have this unique challenge which I am sure you are 
familiar with in terms of continuing staffing concerns. This is 
not acceptable.
    We are not going to solve these problems of murdered and 
missing indigenous women, of rampant drug crime, of rampant 
crime in Indian Country without a plan. I am just curious about 
whether there is an intention on BIA's part to collaborate and 
to come up with a plan for improved law enforcement moving 
forward.
    Mr. LaCounte. Certainly, we did plan to do that.
    Senator Heitkamp. Do you agree that you are inadequately 
staffed right now?
    Mr. LaCounte. Yes.
    Senator Heitkamp. For the job you have been given?
    Mr. LaCounte. Yes.
    Senator Heitkamp. Can you agree that when you are a leader 
in an organization that is inadequately staffed, one of the 
critical things is to ask for the right level of staffing, the 
right level of commitment in terms of resources to do your job?
    Mr. LaCounte. Yes.
    Senator Heitkamp. Thank you. I don't mean to browbeat you. 
I am not going to be around here that much longer, but this is 
an enormous frustration for me. Because if we cannot protect 
people, we are not doing our job. That is fundamentally, 
exactly where we should be.
    If think that BIA has a unique role in making sure you are 
collaborating with all available resources, whether it is 
tribal resources, whether it is State and local drug task force 
resources, what that looks like and making sure we are covering 
all the jurisdictions you have responsibility for. And 
recognizing you are Acting, I know that is another frustration, 
the musical chairs that go with not having that consistent 
leadership, that leads to not only planning but also 
implementation of a plan.
    The consistent problem that I hear over and over again, 
whether it is from the elders or whether it is from tribal 
council, is that there is not adequate public safety personnel 
on the reservations to do the job that needs to be done to 
protect indigenous people.
    I will not beat you up any more, but please know it is 
critically important that BIA assume some leadership on this 
issue.
    The Chairman. Senator Lankford.
    Senator Lankford. Mr. Chairman and Vice Chairman, thank you 
very much.
    Chief Floyd, again, it is good to see you here. Thanks for 
coming and articulating the issues so well today on the Stigler 
Act. This is an anomaly that sits out there nationwide of how 
the Five Tribes in Oklahoma are treated differently than every 
other tribe in the Country. It is an area that has to be 
resolved. It is interesting this is the situation that has 
already had a House vote that was unanimous.
    The Administration and the Department of the Interior have 
already stepped forward and said, we fully support this. Now it 
is going through the Senate process as well, so it is building 
good momentum.
    But this is not the first time this has been discussed. How 
many years has a Stigler Act-like bill come up before this 
Congress? Do you know how many times it has come up?
    Mr. Floyd. I do know that the latest, most recent was about 
ten years ago. It did not pass at that time. Reading through 
the history of this Act, it reads like a very complex novel 
sometimes. It is woven with a lot of other things that have 
occurred in Indian Country throughout the years. I think with 
this approach and with the support of the House, we have made 
progress with the simplicity of this amendment.
    Senator Lankford. Because this is different than previous 
versions?
    Mr. Floyd. It is, yes, sir.
    Senator Lankford. You articulated some of those differences 
that are out there but do you want to articulate a couple of 
them again? How is this different than previous versions of the 
Stigler Act?
    Mr. Floyd. I think one is that there have been folks who 
have said it would be retroactive and they would have to go 
back, it could be creating additional land. It will not do 
that. It is not retroactive. It only goes forward from this 
point.
    It does allow for families to, as is our culture, to pass 
things on and does allow, with the removal of the blood 
quantum, for them to probate their lands and have that moved to 
heirs. As I mentioned before, just having a clear title of 
restricted lands makes it easier to do business with any entity 
outside the nation.
    Senator Lankford. Can I ask you to clarify, because this 
will be an issue that will come up, the best that you 
understand at this point, for families that have chosen not to 
probate, they have that property but the person who had 
ownership passed away some years ago. They still have it but 
have not gone through the probate. How would that be affected?
    If they did not choose to probate it, are they staying in 
restricted, or it still has to go back to the original owner 
when they passed away, if the blood quantum was lost at that 
point? That deals with this issue of retroactive-non-
retroactive and where it stands in the process.
    Mr. Floyd. First of all, the Stigler Act applies to 
practically every family in the Five Civilized Tribes, 
including my own so I will give a personal example. I had a 
brother pass away. He has 160 acres of restricted land. His 
daughter, who is sole heir, is less than half.
    So at the present time, the royalty checks on minerals go 
uncashed. They go into an account. The family has no access to 
the money from surface lease. Until such time as it gets 
resolved through probate, nothing really moves. It is as if 
time stands still.
    This will allow things to proceed in an orderly fashion so 
that the resources go from the accounts to the individuals who 
deserve a share.
    Senator Lankford. It is your understanding, then, that as 
far as it not being retroactive, in that situation, that that 
land, whenever this passes, is lost on restricted status or 
because it has not gone through probate, it would be exempted 
out?
    Mr. Floyd. As it stands today, without the amendments, the 
land would be lost from restricted status. With the passage of 
the amendments, it can be passed to the sole heir of the 
family.
    Senator Lankford. We will follow up when we get a chance to 
talk about that more on it. I do want to ask you about the grim 
dilemma that is in Oklahoma about fractionated land, because 
you have a situation where you have multiple owners and it is 
very difficult to be able to manage. We have some communities 
where a property lays empty and becomes dilapidated, but there 
are a hundred different owners out there. Trying to track down 
everyone just to figure out how to do maintenance on that 
facility becomes very, very difficult. It is also very, very 
difficult in oil and gas leases or any other surface rights 
that may come up.
    This does not address that issue about fractionation. How 
do you think that gets resolved, do you think, in the days 
ahead? Because that is an issue with this. How do you think it 
gets resolved?
    Mr. Floyd. One of the problems, Senator, I see that we 
face, as told to me by own realty department, is we have one 
case that there are 127 heirs to the property. If a company 
wanted to come and lease the minerals, we would have to 
identify all 127 and get their permission. We find in cases, I 
am not saying in this particular case, but we find cases where 
individuals are reluctant to name all the heirs because those 
who do come forward may get larger portions than those who do 
not.
    By having the amendments pass, we can then go in and 
accurately record who the rightful owners are of the property 
and their heirs. When companies come in to do business, their 
job will be made much easier, because we would have a certified 
title that we could give them of the individuals who rightfully 
are due resources from either the mineral lease or the surface 
lease.
    Senator Lankford. Thank you. Thank you, Mr. Chairman.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Mr. LaCounte. as you know, members of my staff visited the 
Pine Hill BIE Schools at the end of August. They reported a 
number of very troubling safety and facilities issues on the 
campus. The library and kindergarten building are closed due to 
black mold. The gym and other buildings have roof and ceiling 
issues. There is no security fencing around the campus, even 
though it is a residential campus located near other high 
traffic community buildings like the post office.
    Many of these issues were the subject of a 2016 DOI Office 
of Inspector General report, but they are still unresolved. 
Based on the weekly status reports I requested of BIA and BIE, 
the Bureaus are working with the tribal school board to develop 
a school site project plan to address these health and safety 
problems.
    Mr. LaCounte. is this school site project plan still on 
track to be in place before the end of the month?
    Mr. LaCounte. Could you repeat the last question?
    Senator Udall. Yes. Is this school site project plan still 
on track to be in place before the end of the month?
    Mr. LaCounte. The plan is in place right now.
    Senator Udall. Now, okay.
    Mr. LaCounte. After our meeting with you, I stepped up and, 
Senator, I didn't want to put my fate in others' hands. I would 
also like you to know when I walked back to my office that day, 
they handed me your second letter. That is when it arrived in 
my office.
    But the plan is in place. I am going to see it through. I 
am committed to seeing that through.
    Senator Udall. Thank you very much for doing that. We 
really appreciate your commitment to that.
    What assurances can you give me that completing and 
implementing this plan will fully address the issues at Pine 
Hill after so many years of inaction?
    Mr. LaCounte. I will give you the same assurances I gave 
you on the GAO high risk. I am going to see it through. I will 
see this through as long as they allow me to serve in this 
capacity.
    Senator Udall. Terrific. If you are getting all that done, 
I hope you are going to be serving there for a while. I 
appreciate it.
    It is reassuring to hear that the BIA and BIE seem to be 
taking the facilities issues at Pine Hill more seriously now, 
but I know that there are other BIE schools dealing with 
unresolved health and safety issues. Some of these issues 
likely just need follow-up through the maintenance staff, but 
you and I know that there is a serious issue with getting BIE 
contracting and project management done efficiently.
    Are BIA and BIE going to work with other BIE schools to 
develop a school site project plan similar to what you did on 
Pine Hill?
    Mr. LaCounte. I am quite certain I can commit to that as 
well. I think this unfortunate incident outlined some 
breakdowns in communication that needed addressed. I was 
pleasantly surprised when I started making noise myself that 
people fell in line and wanted to participate.
    We generally do a weekly meeting with all the players. 
There are a lot more players than one would imagine, but 
working together, and everybody understands the importance of 
this. I do believe that.
    Senator Udall. Thank you very much for that.
    What actions are you taking to improve the efficiency and 
quality of work coming out of BIA's contracting officers and 
project managers?
    Mr. LaCounte. I cannot really speak to that. They are a 
part of the DSAM, the Deputy Secretary for Administration, but 
I communicate with them. I encouraged them, as I committed to 
you, that I would seek another contracting officer to handle 
this particular situation.
    I think it woke them up, in that not only did I get one, I 
got one directly from them. I did not have to bring one from 
another BIA location. They paid attention to that. We have a 
new CFO who is very committed to the quality in the contracting 
officers. He is looking at their credentials.
    He actually just provided me, just yesterday, a list of 
every contract we have concerning BIE schools and tribally-
operated schools. We are committed to it and I know that he is 
very committed to it.
    Senator Udall. Thank you very much for your answer. Thank 
you for your commitment to these issues.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman and Ranking 
Member Udall, for having this hearing.
    I agree with the comments I heard earlier. I don't think 
any of the legislation we are talking about today is 
unreasonable at all. I want to thank Mr. LaCounte for your 
support and BLM's support of the legislation.
    While we have you here, I have a quick question for you. I 
know, and we have been talking about this, that the 
Administration's budget proposal was about $18 million to begin 
the process of the reorganization within the Department of the 
Interior. Is that reorganization still going forward, to your 
knowledge?
    Mr. LaCounte. The reorganization of the Department, minus 
the Bureau of Indian Affairs, the Bureau of Indian Education, 
and the Office of the Special Trustee, are moving forward.
    Senator Cortez Masto. So, those three agencies you just 
identified are not part of the reorganization?
    Mr. LaCounte. At this time, they are not.
    Senator Cortez Masto. Have you made the tribal communities 
aware of that?
    Mr. LaCounte. Yes.
    Senator Cortez Masto. Okay, because I just came from 
northern Nevada and meeting with some of the tribal communities 
and they had no idea. In fact, they were concerned they had not 
been consulted at all.
    So what I am hearing right now is they are not part of a 
reorganization, none of that is taking place. Whatever the 
chain of command moving forward from the top all the way down 
to those agencies that impact our tribal communities, there is 
no reorganization, no change in the chain of command?
    Mr. LaCounte. There is not.
    Senator Cortez Masto. Okay. That is good to know. Thank you 
very much.
    Vice Chairman Yankton, let me ask you very quickly, I 
appreciate the legislation. Is it true that currently, now, 
there is concurrent jurisdiction for law enforcement both by 
your tribe and tribal law enforcement along with the State law 
enforcement? Is that what is happening right now?
    Mr. Yankton. Right now, the current law does give the State 
and counties authority to come in and exercise their law.
    Senator Cortez Masto. But have they been?
    Mr. Yankton. No.
    Senator Cortez Masto. That was my question. Even though the 
jurisdiction was transferred to the State, literally, my 
understanding is there has been no law enforcement with that 
transfer. Is that correct?
    Mr. Yankton. Probably not for the last 40, 50 years.
    Senator Cortez Masto. And that is one of the reasons to put 
together your own tribal court, tribal law and law enforcement 
to move forward and make this change?
    Mr. Yankton. Yes. Mind you, we really would also still be 
receptive to doing memoranda with the different State law 
departments, highway patrol, county, city. I think the more the 
merrier when it comes to policing no matter what area you are 
in. We just need to learn to know what those boundaries and 
jurisdictions and laws are because we are a federally-
recognized tribe.
    Senator Cortez Masto. I appreciate that. Coming from 
Nevada, and the former States Attorney there, that is exactly 
what some of our local jurisdictions did. We entered into MOUs 
with the tribal communities for law enforcement purposes. I so 
appreciate that comment.
    I also know that, and this is a concern I have with BIA and 
more resources that are needed and the support for law 
enforcement across our tribal communities. I see it lacking in 
the State of Nevada. I think it is a resource issue. You have 
identified it.
    I look forward to whatever proposals and budget proposals 
that you have moving forward and what your needs are. I am 
hoping you come forward, Director LaCounte, and let us know, 
because we want to be supportive of our communities. I look 
forward to working with you on that as well.
    I have no further questions. Thank you very much.
    The Chairman. Thank you, Senator.
    At this point, I would like to thank all of our witnesses. 
We appreciate you being here and presenting testimony today.
    Members may have follow-up questions which they can submit 
for the record. We would ask that you respond in a timely way. 
The hearing record will be open for two weeks.
    With that, our thanks to you. We are adjourned.
    [Whereupon, at 4:36 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Gary Batton, Chief, Choctaw Nation of 
                                Oklahoma
    Halito!
    Good afternoon, Mr. Chairman, Mr. Vice Chairman, Senator Lankford, 
and Members of the Committee. My name is Gary Batton. I am the elected 
Chief of the Choctaw Nation of Oklahoma, on whose behalf I offer this 
testimony in support of prompt approval by the Senate of H.R. 2606, the 
House-passed legislation known as the Stigler Act Amendments of 2018.
Background on the Choctaw Nation.
    The Choctaw Nation's jurisdictional boundaries encompass 
approximately 11,000 square miles of land, including 10\1/2\ counties 
in southeastern Oklahoma. That covers an area larger than Maryland and 
Rhode Island combined. Of the worldwide total of about 194,000 enrolled 
Choctaw citizens, about 109,000 live within Oklahoma, and of those, 
about 44,300 reside within the Choctaw Nation.
    Because of our large, mostly rural geographic area, checkerboard 
land ownership, and commingling of tribal and nontribal communities, 
our challenges in land management are a bit more acute than those 
confronting other tribal governments exercising jurisdiction over a 
contiguous tribal land base. But the Choctaw Nation is making the most 
of every opportunity.
    The Choctaw Nation was designated as the first tribal Promise Zone 
in 2014. More recently, the Choctaw Nation secured thirteen separate 
Opportunity Zone designations in census tracts within its 
jurisdictional boundaries, pursuant to authorities enacted in the Tax 
Cuts and Jobs Act of 2017. We earned these distinctions due to the many 
challenges we face in our region, and due to the proven leadership and 
capacity of Choctaw Nation to efficiently use resources in ways that 
can make a difference and leverage federal investments in southeastern 
Oklahoma for all residents though partnership and collaboration.
Background on H.R. 2060 and the Stigler Act
    On September 12, 2018, H.R. 2606 was placed on the suspension 
calendar and passed by voice vote of the House of Representatives. H.R. 
2606 would amend the Act of August 4, 1947 (also known as the Stigler 
Act) to lift certain unique restrictions placed upon Indians who are 
members of five of the 38 tribes in Oklahoma. The Choctaw Nation of 
Oklahoma is one of the five tribes who are located in eastern Oklahoma 
(a/k/a the ``Five Tribes'').
    About 120 years ago Congress enacted the Curtis Act which attempted 
to break up the tribally-owned lands of the Five Tribes, allotting them 
to individual members of the Five Tribes, and opening up some of the 
lands of the Five Tribes to non-Indian ownership. For the next several 
decades, most of the allotted lands were held by individual Indians 
subject to restrictive protections designed to preserve the Indian land 
base by sharply limiting alienation (sale or transfer) and taxation 
without federal approval.
    In 1947, Congress enacted the Stigler Act in order to remove the 
protections of federal restrictions during probate proceedings if heirs 
and devisees of an allotment have less than one-half degree Indian 
blood quantum. On a prospective basis affecting only future probate 
proceedings, H.R. 2606 would eliminate this provision that terminates 
Indian land status.
Choctaw Nation Experience with Stigler Act Authority
    The Stigler Act's 50 percent blood quantum threshold can no longer 
be met by many citizens of the Choctaw Nation who remain actively 
identified with their Choctaw families and community and who want to 
maintain the protections of federally restricted status for the surface 
and subsurface interests in lands they own. The Stigler Act's 
termination clause has led to the wholesale loss of federal land 
protections in the past six decades, and the consequent loss of Indian 
land interests in the Choctaw Nation.
    The Choctaw Nation bears a disproportionate share of the harm being 
caused by the Stigler Act termination threshold, because the Choctaw 
Nation has more federallyrestricted allotted lands than any one of the 
other four tribes in eastern Oklahoma. Originally 6,952,960 acres were 
allotted to Indian individuals within the Choctaw Nation. As of early 
2016, after a century of staggering losses of Choctaw Indian lands, the 
number of allotted lands in Choctaw Nation was reduced to 135,263 
acres. Since the beginning of 2017, at least forty Choctaw citizens who 
are heirs of allottees lost their restricted interests in an additional 
2,800 acres as a consequence of the Stigler Act threshold not being met 
in the probate proceedings of the growing number of elderly Choctaw 
citizens who are passing on.
Why Choctaw Nation Supports H.R. 2606.
    Federal land restrictions are of incredible value to the Choctaw 
Nation and to our Choctaw citizens. First, they help slow the loss of 
what little is left of Indian land ownership in Choctaw's part of 
Indian Country. Second, federal land restrictions maintain without 
question the well-settled territorial aspects of tribal jurisdiction. 
Third, such federal land restrictions typically are an eligibility 
requirement for federal assistance in the form of program funding, 
grants, loans and loan guarantees.
    Choctaw Nation has long sought the relief that would be provided by 
H.R. 2606. H.R. 2606 is a streamlined, simple technical amendment that 
would fix the core of our main problem with the Stigler Act. H.R. 2606 
only applies to the five tribes in eastern Oklahoma because the Stigler 
Act it would amend only applies to our five tribes. None of the 568 
other federally recognized tribes or their members suffer the same 
penalty that is imposed on our five tribes by the Stigler Act.
    In order to maintain the protections of federal restrictions on 
Indian land title, the Choctaw Nation seeks parity with all other 
tribes outside of eastern Oklahoma. The Stigler Act denies us that 
parity. H.R. 2606 would restore that parity and repeal the termination 
clause that is in the Stigler Act today.
    Fixing the Stigler Act is long overdue. We urge the Committee to 
move quickly during the remaining days of this session to favorably 
report H.R. 2606 to the Senate floor for prompt enactment as passed by 
the House, without amendment. Any change to H.R. 2606 at this late 
stage of the process poses a real and substantial threat to enactment 
of this relief this year or in the foreseeable future.
Conclusion
    The Choctaw Nation appreciates everything that Senator Lankford has 
done to get H.R. 2606 to the finish line at this hearing today, and 
everything that he, Chairman Hoeven, Vice Chairman Udall, and other 
members of this Committee are doing every day to advance the interests 
and concerns of the Choctaw Nation and all Indian tribes. Your 
continued support in these matters plays a crucial role in the Choctaw 
Nation's efforts to live out our foundational values of faith, family 
and culture.
    Thank you for joining in our mission to help the Choctaw Nation and 
all of Indian Country not only survive but thrive. We are pleased to 
provide this written testimony and thank you for the opportunity to do 
so.
    Yakoke (Thank you).
                                 ______
                                 
 Prepared Statement of Hon. Bill Anoatubby, Governor, Chickasaw Nation
    Chairman Hoeven, Vice Chairman Udall, and honorable members of the 
Committee:
    My name is Bill Anoatubby, and I am Governor of the Chickasaw 
Nation. I support the comments offered today by other leaders of the 
Five Tribes, but I offer as well this brief statement on behalf of the 
Chickasaw Nation and its citizens, who live throughout our treaty 
territory, the State of Oklahoma, and the United States. Thank you for 
this opportunity to address you on this matter.
    H.R. 2606 presents Congress with the opportunity to amend the 
Stigler Act and remedy a longstanding and unjustifiable complication to 
Chickasaw citizen allotment title and land management. As others have 
highlighted, the Stigler Act's requirements and procedures apply only 
to allotment lands held by citizens of the Five Tribes--that is, 
citizens of either the Cherokee Nation of Oklahoma, the Chickasaw 
Nation, the Choctaw Nation of Oklahoma, the Muscogee (Creek) Nation, or 
the Seminole Nation of Oklahoma. Allotments held by no other Tribe's 
citizens, whether in Oklahoma or elsewhere in Indian country, are 
subject to these unique complications.
    We, the leadership of the Five Tribes, previously sought 
comprehensive reform and update of the Stigler Act of 1947. More than a 
decade ago, we succeeded in moving reforms through the House of 
Representatives, but the initiative fell short of enactment into 
Federal law. More recently, we renewed our efforts on a far narrower 
basis than the prior comprehensive initiative, and we come before you 
again with passage of a productive bill in the House, H.R. 2606, which 
is now presented to you for your consideration. If advanced by this 
Committee, approved by the Senate, and enacted into law, H.R. 2606 
would reform the most odious and archaic legal obstacle to the 
preservation of Five Tribe citizens' allotted lands--specifically, it 
would strike from law the termination-era requirement that Federal law 
protections of American Indian and Tribal interests be contingent upon 
an allottee's being of \1/2\-``Indian blood.'' H.R. 2606, once enacted, 
would strike that requirement with prospective effect only and, thus, 
not create any new parcel of restricted or Tribal trust land. Nor would 
it change other procedural requirements that apply to Five Tribe 
allotment lands. It would, instead, allow presently restricted lands to 
remain in protected status subject to the desire of the owners rather 
than by application of an anachronistic and likely unconstitutional 
blood-quantum requirement.
    By narrowly amending the Stigler Act in this manner, H.R. 2606 
would end an archaic and unnecessary provision of federal law and end 
one problematic aspect of Congress's prior distinct and disparate 
treatment of Five Tribe lands, bringing the rules into greater parity 
with what applies to allotment lands held by other American Indians. We 
accordingly strongly commend this narrow measure for your favorable 
action.
    On behalf of the Chickasaw Nation and its citizens, I ask that you 
support passage and enactment of H.R. 2606.
    Thank you again for the opportunity to address you on this matter.

                                  [all]
</pre></body></html>
